<html>
<title> - BUSINESS MEETING</title>
<body><pre>[Senate Hearing 114-225]
[From the U.S. Government Publishing Office]









                                                        S. Hrg. 114-225

                            BUSINESS MEETING

=======================================================================

                                MEETING

                               before the

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               ----------                              

                           APRIL 28-29, 2015

                               ----------                              

  Printed for the use of the Committee on Environment and Public Works



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




       Available via the World Wide Web: http://www.gpo.gov/fdsys





















                                                        S. Hrg. 114-225

                            BUSINESS MEETING

=======================================================================

                                MEETING

                               before the

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           APRIL 28-29, 2015

                               __________

  Printed for the use of the Committee on Environment and Public Works


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




       Available via the World Wide Web: http://www.gpo.gov/fdsys
                               __________
                               
                       U.S. GOVERNMENT PUBLISHING OFFICE 

99-690 PDF                     WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001                              
                               
                               
                               
                               
                               
                               
                               
                               
                               
                               
                               
                               
                               
                               
                               
                               

               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                    ONE HUNDRED FOURTEENTH CONGRESS
                             FIRST SESSION

                  JAMES M. INHOFE, Oklahoma, Chairman
DAVID VITTER, Louisiana              BARBARA BOXER, California
JOHN BARRASSO, Wyoming               THOMAS R. CARPER, Delaware
SHELLEY MOORE CAPITO, West Virginia  BENJAMIN L. CARDIN, Maryland
MIKE CRAPO, Idaho                    BERNARD SANDERS, Vermont
JOHN BOOZMAN, Arkansas               SHELDON WHITEHOUSE, Rhode Island
JEFF SESSIONS, Alabama               JEFF MERKLEY, Oregon
ROGER WICKER, Mississippi            KIRSTEN GILLIBRAND, New York
DEB FISCHER, Nebraska                CORY A. BOOKER, New Jersey
MIKE ROUNDS, South Dakota            EDWARD J. MARKEY, Massachusetts
DAN SULLIVAN, Alaska

                 Ryan Jackson, Majority Staff Director
               Bettina Poirier, Democratic Staff Director
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
                            C O N T E N T S

                              ----------                              
                                                                   Page

                           APRIL 28-29, 2015
                           
                           OPENING STATEMENTS

Inhofe, Hon. James M., U.S. Senator from the State of Oklahoma...     1
Boxer, Hon. Barbara, U.S. Senator from the State of California...     6
Booker, Hon. Cory A., U.S. Senator from the State of New Jersey, 
  prepared statement on S. 697...................................   227
Cardin, Hon. Benjamin L., U.S. Senator from the State of 
  Maryland, prepared statement on:
    S. 697, the Frank R. Lautenberg Chemical Safety for the 21st 
      Century Act................................................   290
    S. 544, the Secret Science Reform Act of 2015................   310
    S. 653, the Water Resources Research Amendments Act of 2015..   320

                               LEGISLATION

Text of an amendment in the nature of a substitute to S. 697 
  offered by Senator Udall.......................................    33
Text of the amendment to S. 697 offered by Senator Gillibrand....   214
Text of the amendment No. 1 to S. 697 offered by Senators Boxer, 
  Sanders, and Markey............................................   222
Text of the amendment No. 1 to S. 697 offered by Senator Markey..   231
Text of the amendment No. 2 to S. 697 offered by Senator Markey..   237
Text of the amendment No. 3 to S. 697 offered by Senators Boxer 
  and Carper.....................................................   242
Summary, amendment No. 5 to S. 697 offered by Senators Boxer, 
  Markey, and Sanders............................................   257
Text of the amendment No. 5 to S. 697 offered by Senators Boxer, 
  Markey, and Sanders............................................   258
Text of S. 544, the Secret Science Reform Act of 2015...........295-297
Text of the amendment No. 1 to S. 544 offered by Senators Markey 
  and Boxer......................................................   301
Text of the amendment No. 2 to S. 544 offered by Senators Markey 
  and Boxer......................................................   304
Text of the amendment No. 2 to S. 544 offered by Senators Boxer 
  and Markey.....................................................   307
Text of S. 653, the Water Resources Research Amendments Act of 
  2015..........................................................314-318
Text of Committee Resolutions....................................   324

                          ADDITIONAL MATERIAL

Letters:
    International Society for Environmental Epidemiology........359-360
    Nanominerals Corp. et al....................................361-368
    American Association for Justice............................369-370
    American Statistical Association............................372-373
    Coalition for Sensible Safeguards............................   374
    Federation of American Societies for Experimental Biology...375-376
    Allergy & Asthma Network et al..............................377-378
    American Association for the Advancement of Science.........379-380
    Union of Concerned Scientists...............................381-382
    American Association for the Advancement of Science.........386-387
    BlueGreen Alliance et al....................................388-389

Nomination Reference and Report, Mark Scarano to be Federal 
  Cochairperson of the Northern Border Regional Commission.......   358
Executive Office of the President, Office of Management and 
  Budget, Statement of Administration Policy.....................   371
Congressional Budget Office Cost Estimate, H.R. 1030, the Secret 
  Science Reform Act of 2015.....................................   383
 
                            BUSINESS MEETING

                              ----------                              


              TUESDAY, APRIL 28-WEDNESDAY, APRIL 29, 2015

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10 a.m. in room 
406, Dirksen Senate Building, Hon. James M. Inhofe (chairman of 
the committee) presiding.
    Present: Senators Inhofe, Boxer, Vitter, Barrasso, Boozman, 
Fischer, Crapo, Wicker, Sullivan, Capito, Rounds, Carper, 
Whitehouse, Merkley, Gillibrand, Sanders, Markey, and Booker.

          OPENING STATEMENT OF HON. JAMES M. INHOFE, 
            U.S. SENATOR FROM THE STATE OF OKLAHOMA

    Senator Inhofe. Our meeting will come to order. We already 
have a pretty good crowd here. This is the first mark-up of the 
EPW committee to order.
    We have a number of items, many of which are bipartisan, 
which we can report out of the committee this morning. Senator 
Barrasso's bill, S. 544, ensuring data on which EPA bases its 
regulations are available to the public sector, and I think we 
may get a visitor on that from Representative Lamar Smith, who 
had the bill over in the House. He should be probably coming 
here for this.
    We have Senator Wicker's bill, S. 611, to reauthorize the 
Safe Drinking Water Act's technical assistance and training 
provision to assist small and rural public water systems. This 
is something that is near and dear to me, because Mississippi 
isn't that much different from Oklahoma, and that need is 
there. This is legislation that the committee reported last 
Congress by voice vote.
    Senator Cardin's and Senator Boozman's bill to reauthorize 
Water Resources Research Act grants. We have a few naming 
bills, the nomination of Mark Scarano to be Federal co-chairman 
of the Northern Border Regional Commission. And finally GSA 
resolutions, all of which have already been considered and 
passed out of the T&I Committee over in the House.
    One of the principal items on the agenda is S. 679, the 
Frank R. Lautenberg Chemical Security for the 21st Century Act. 
It is authored by Senators Vitter and Udall. This is something 
which has been in the works for a long time, and I have often 
said this is really kind of the legacy of Frank Lautenberg. 
This legislation is now bipartisan. Co-sponsors are equal in 
number of Democrats and Republicans. It has bipartisan support 
within this committee.
    In fact, due to the consistent work of Senators Vitter and 
Udall, we now have reached a new amendment or an underlying 
bill with the support of Senators Whitehouse, Booker, and 
Merkley. I genuinely appreciate their work over the last number 
of weeks to reach this compromise.
    For years, Senator Lautenberg worked to update the 1976 
law, introducing bills each Congress. He and I met in my office 
back in 2012, and it was his idea that we get people together, 
the stakeholders together, and talk about what should be a part 
of legislation. Everyone agreed we needed to do something, not 
exactly what it was. So we started working on it at that time. 
Major environmental laws do not get passed or updated without 
bipartisan support. And certainly we have that.
    TSCA is long overdue. As Dr. McCabe, the chief medical 
officer of the March of Dimes, testified at our legislative 
hearing just a couple of weeks ago here, ``The current Federal 
framework for the regulation of toxic substances is badly 
antiquated. The legislation before this committee today,'' 
referring to this legislation, ``developed by Senators Tom 
Udall and David Vitter, and co-sponsored by numerous other 
Senators, including the Chairman, represents a critical step 
forward toward establishing a system of chemical regulation 
that will be protective of maternal and child health.''
    Dr. Richard Denison of Environmental Defense Fund 
testified, ``The Environmental Defense Fund supports the 
Lautenberg Act as a solid compromise that fixes the biggest 
problems in the current law, is health protective and has the 
strong bipartisan support necessary to become law.''
    Finally, Dr. Lynn Goldman, a former EPA assistant 
administrator for the Office of Prevention, Pesticides and 
Toxic Substances during the Clinton administration, a former 
California regulator, and perhaps most importantly, a 
pediatrician, testified the public health standard in this bill 
is ``an immense improvement over current law.'' She also 
identified that the bill orders strong chemical testing, 
directs that EPA certify safety of new chemicals, and makes 
more chemical information public.
    This is a bill which has the support of the regulated 
community, environmental community, many in the medical 
community, and bipartisan support in the Senate. We should 
report it to the full Senate so we can consider the bill.
    Senator Boxer.
    [The prepared statement of Senator Inhofe follows:]
   
   
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
   
    
           OPENING STATEMENT OF HON. BARBARA BOXER, 
           U.S. SENATOR FROM THE STATE OF CALIFORNIA

    Senator Boxer. Thank you, Mr. Chairman.
    Colleagues, this is the Environment Committee, not the 
board room of the chemical companies. That is why I am pleased 
with the 179-page Vitter amendment as a substitute for S. 697. 
We are witnessing the death of that original bill, which 
according to a prize winning reporter, was written on the 
computer of the American Chemistry Council. I ask unanimous 
consent to place in the record that article.
    Senator Inhofe. Without objection.
    [The referenced article follows:]
    
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]  
    
    
    Senator Boxer. That bill is gone, and I give my deepest 
thanks to the many public health organizations, environmental 
organizations like the Environmental Working Group, NRDC, Safer 
Chemicals, the Breast Cancer Fund, the Asbestos Disease 
Awareness Organization, nurses, physicians, the media and 
individuals like Deirdre Imus, Linda Reinstein and Trevor 
Schaefer. Those individuals and organizations put S. 697, the 
original bill, front and center and, despite its magnificent 
name, named after one of my most dearly beloved colleagues, 
they saw it for what it was. I ask unanimous consent to place 
in the record a Chronicle editorial that was written after they 
met with the breast cancer people.
    Senator Inhofe. Without objection.
   
   
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]  
   
     
    Senator Boxer. The old bill had, as Senator Whitehouse 
called it, a death zone. The death zone is the period when 
States cannot act to address cancer-causing chemicals. Thanks 
to all of you who were so strong, and particularly those who 
stood by my side at several press conferences, we have seen 
great improvements to this bill.
    So now in the Vitter amendment, we see fixes to preemption 
of State air and water laws, co-enforcement of chemical 
restrictions by States, removal of a harmful provision that 
would have undermined the EPA's ability to restrict imports of 
dangerous chemicals from foreign countries.
    When several colleagues offered to negotiate the changes, I 
said yes. Senators Whitehouse, Merkley and Booker, they worked 
very hard, very hard to improve the bill. I know, because I 
spoke to them almost every day this past week. They came 
through on those fixes that I mentioned, and I thank Senators 
Vitter and Udall for agreeing to them.
    With the Vitter amendment, we are still left with a death 
zone of at least 5 years. What could happen during that time? 
New scientific evidence could show that a chemical causes 
cancer, but the States can't act. During the 5-year period, 
there is a list of conditions that easily could be used to deny 
a waiver and force the States to go to court.
    The House bill, the House bill on TSCA, has no preemption 
provision. A chemical actually has to be regulated before there 
is preemption. That is the way it should be, and we have a 
chance to make the important fix with the Gillibrand amendment. 
I hope we will. We all talk about the rights of our States to 
act to protect their people. Let's prove that we mean it when 
we say States' rights, and support Senator Gillibrand. Let's 
not have Big Brother tell the States they have no right to act 
to protect their citizens.
    You know when our States act, we all benefit. When 
Minnesota took first steps to ban BPA in baby bottles, and the 
State of Washington took the lead on restricting the use of 
brain-toxic lead in jewelry, and my home State spearheaded the 
effort to restrict the use of cancer-causing formaldehyde in 
wood products, that benefited the entire Nation, the entire 
Nation.
    I also don't understand why in the new Vitter substitute 
there is not even a mention of asbestos, the most dangerous 
substance. It takes 10,000 lives a year; no mention of it in 
the substitute.
    The new Vitter amendment left out action also on cancer 
clusters and chemical spills in drinking water, which is so 
important to West Virginia. We have amendments to address that. 
There are still many parts of this bill that need fixing, and I 
urge my colleagues to keep working to make this bill better. 
And I ask unanimous consent to place in the record letters from 
organizations that oppose final passage of the Vitter 
substitute unless we pass strong perfecting amendments.
    Senator Inhofe. Without objection.
    [The referenced letters were not received at time of 
print.]
    Senator Boxer. Those would include Safer Chemicals, Healthy 
Families Coalition, which represents 450 environmental, labor, 
and health groups; the Asbestos Disease Awareness Organization; 
the AFL-CIO; Environmental Working Group, the Breast Cancer 
Fund, and the Center for Environmental Health. I really look 
forward to making this chemical safety bill better and better. 
But if we can't support these perfecting amendments today, I 
intent to vote no on final passage.
    I thank you so much for all your work on this.
    [The prepared statement of Senator Boxer follows:]
   
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
   
    
    Senator Inhofe. Thank you, Senator Boxer.
    We will be dealing with quorums. We need 11 to report the 
legislation, when we get to that point, and 7 people here for 
the GSA Resolutions amendments I mentioned in my opening 
statement.
    To begin, we will call up the Vitter substitute, the 
Vitter-Udall substitute amendment. That will be the underlying 
bill, and I recognize Senator Vitter for an explanation. Over 
the weekend, they reached an agreement, as was called to our 
attention by myself and by Senator Boxer, on the substitute 
amendment, which I think is supported by a lot of people on 
this committee.
    Senator Vitter.
    Senator Vitter. Thank you very much, Mr. Chairman, for 
convening today's business meeting and for bringing up this new 
version of S. 697. This work reflects the ongoing strong 
bipartisan effort between Senator Udall and myself and 
involving so many others. This bill is a marked improvement 
over current law. It does represent significant positive 
compromise. It is the Frank R. Lautenberg Chemical Safety for 
the 21st Century Act, aptly named.
    Mr. Chairman, after this committee held our hearing on the 
legislation in March, Senator Udall and I took the concerns 
presented by many colleagues and stakeholders and set out to 
make the bill even stronger. That is what we have before us 
today. I am pleased to have worked, in particular, with 
Senators Whitehouse, Merkley, and Booker to produce this 
compromise. I welcome their input and their support. I also 
want to thank Senator Carper for his relentless work on this 
issue.
    Mr. Chairman, let me just briefly note some of the 
improvements in this bill. First, the amendment creates a 
compromise on one of, if not the most, controversial issue, and 
that is high priority preemption. Not only did the bill as 
originally introduced remove the preemptive effect of low 
priority decisions, but this amendment today goes farther to 
balance the need for maintaining business certainty while 
allowing States to play an important role in protecting public 
health and the environment.
    No. 2, Mr. Chairman, this bill allows for State co-
enforcement of regulations that are consistent with current 
TSCA. No. 3, it requires that for the purposes of TSCA 
submissions to the EPA, industry look at available alternatives 
to animal testing. And No. 4, this bill provides clarification 
that State clean air and water laws are not preempted by the 
legislation, which was never our intent.
    Many of these changes reflect requests made by colleagues. 
This compromise represents real improvement that my side of the 
aisle will also appreciate, including allowing for a greater 
number of chemicals to move through the system at the request 
of the regulated community, clarifying some necessary 
protections of confidential business information and clarifying 
EPA's process around articles.
    Again, thank you very much, Mr. Chairman, for your 
leadership, your work in getting us to this very significant 
day, marking up and passing out of committee a major 
improvement to current law. Thank you, Mr. Chairman.
    [The text of the amendment in the nature of a substitute 
offered by Senator Udall follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Senator Inhofe. I applaud both you and Senator Udall for 
your hard work. It has been very time consuming. You have had a 
lot of staff keeping busy late at night. We are finally here.
    I am going to ask for members to seek recognition on each 
amendment that a member may want to call up. We have a long 
list of possible amendments. We have counsel at the witness 
table to answer questions concerning the legislation and 
amendments from committee members. At the conclusion of the 
members' statements and questions, we will vote on each 
amendment until finally proceeding to the vote on the bill.
    Does any Senator seek recognition? Senator Gillibrand.
    Senator Gillibrand. Thank you so much, Mr. Chairman, and 
Ranking Member. I appreciate the tireless work of our 
colleagues on this bill to craft a bill that is worthy of Frank 
Lautenberg's legacy and name. A special thanks to Senators 
Udall and Vitter for coming together with our colleagues, 
Senators Whitehouse, Merkley and Booker, to begin to strengthen 
this bill. I believe that everyone here shares the desire to 
fix our broken toxic substance control system and keep our 
families and children safe.
    A remaining issue that needs to be fixed about this bill, 
and my amendment that I would call up would address this 
directly, is the right of individual States to do what they 
believe is right for their citizens. As currently written, the 
bill would tie the hands of Governors and State legislators to 
develop their own safety standards, even when the EPA hasn't 
yet decided whether a chemical is safe or not. Just thinking 
about that for a moment, States that are ready, willing and 
able to protect their families will be forced to sit on the 
sidelines and wait for EPA to study an issue.
    What is more important, the EPA can take years to do its 
full analysis. And while I do very much appreciate what my 
colleagues have done to shorten this to 5 years, I still 
believe that it is only right to allow my State to make its own 
regulations in the absence of a Federal decision.
    Therefore, my amendment very simply would preserve States' 
rights. It would preserve the right of the individual State to 
act on the best interest of its people. It would let States 
make their own decisions about toxic substances while they wait 
for the EPA.
    In our 50 States, we have 50 different perspectives on what 
and when a chemical is considered dangerous and whether it 
should be curtailed. But I think we can all agree that no State 
should be prevented from acting in the best interest of its 
people. No State should be barred from banning a chemical it 
considers to be dangerous, simply because EPA is taking time to 
review the substance.
    My proposal is taken straight out of the House draft of the 
Toxic Substance Control Act, which was recommended by Chairman 
Shimkus. It would allow State law to be preempted only after 
the EPA has finished its studies and has determined that a 
chemical is unsafe.
    I want to give you just one example about why this is so 
important. The flame retardant TRIS is found in many child care 
products, like bedding and car seat padding. This chemical is 
classified by the Consumer Product Safety Commission as a 
probable human carcinogen. And young children can ingest it at 
dangerous levels, because they tend to put their hands in their 
mouths.
    In 2011, New York was the first State to ban this chemical 
in children's products. Since then, three other States have 
followed suit. But the EPA has yet to make its own 
determination on the chemical.
    If this bill was law in 2011, it would have prohibited any 
of the individual States from taking any action to limit 
manufacturing, processing, distribution or use of this 
carcinogen, because they would have had to wait for EPA to make 
its final assessment. Under this bill, States would be 
prohibited from doing anything to protect their citizens for 5 
years while the EPA slowly studies the issue.
    I am all for the EPA being careful and thorough with its 
research. This country benefits greatly from their work. But I 
can't support a bill that prohibits States from acting on their 
own to protect children from chemicals. I urge my colleagues to 
support this amendment to preserve the rights of individual 
States to make those decisions.
    [The text of the amendment offered by Senator Gillibrand 
follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Senator Inhofe. Thank you, Senator Gillibrand, for 
clarification. This is Gillibrand No. 1 amendment that you are 
referring to. It appears to me that the amendment would be 
harmful to the bipartisan compromise, but I recognize Senator 
Vitter.
    Senator Vitter. Yes, Mr. Chairman. I am going to urge a no 
vote on this well intended amendment. This would alter the 
fundamental compromise in this bill. That compromise is to give 
EPA significant new authority, but also to say when they act 
and when they take up a chemical, we are going to have one 
rulebook and not 50 different rulebooks that industry has to 
follow.
    So this would alter that fundamental compromise. I think it 
could also create a rush for States to get to hasty decisions 
before a Federal decision and potentially do poor work. Now, 
EPA doesn't have an unlimited amount of time in any of this. 
There is significant room for States to take action. But this 
would alter the important compromise in the bill.
    Senator Boxer. Mr. Chairman.
    Senator Inhofe. Senator Boxer.
    Senator Boxer. Thank you so much.
    I appreciate the views of my colleague, Senator Vitter. But 
I don't see how this amendment undermines a thing. As a matter 
of fact, Senators Whitehouse, Merkley and Booker made some 
slight improvements, in my view. They think more, but that is a 
disagreement, on preemption. So the fact is, your new 
substitute does in fact make changes on preemption.
    All Senator Gillibrand is saying is this. Let the States do 
what they do best, which is protect their people until the EPA 
has completed their work on a chemical. Otherwise, you have 
this horrific death zone in there. That means nobody can do 
anything about a chemical for a period of more than 5 years. 
And as she has said, she took her amendment directly from a 
Republican in the House, Chairman Shimkus, who said the States 
should be able to act.
    So frankly, I know this vote is going to be taken. But 
anyone who votes no, I would ask them, before they do it, to 
think about all the speeches they gave about States' rights. 
This is a States' rights matter. And I think when the States 
want to protect their folks, they should have a chance to do 
so.
    So I want to thank my colleague and hope that we will pass 
this. If we pass this, this has taken a giant step forward.
    Senator Inhofe. Do others wish to be heard? Senator 
Sanders.
    Senator Sanders. I find it awkward to be speaking here in 
the position of being the most conservative member of this 
committee.
    [Laughter.]
    Senator Sanders. And I do not usually have very nice things 
to say about Republicans in the House.
    [Laughter.]
    Senator Sanders. But apparently this time, for whatever 
reason, they did the right thing and they were consistent with 
their ideology.
    We have a system of federalism, which actually is a very 
interesting and well thought out theory of government by our 
founders. And they say we have different States who do things 
differently. But if the State of Nevada or the State of 
Oklahoma does something really good, other States learn from 
it. If a State does something bad, we learn from that.
    So the concept of telling States that they cannot go 
forward I think is not what conservatives should be supporting. 
What governments do closest to home is something that I believe 
makes a lot of sense. The State of Vermont has been a leader on 
these issues, and I want to see the State of Vermont continue 
to be a leader, that other States can learn from Vermont, and 
Vermont can learn from California and so forth and so on. So I 
think when we have the very conservative U.S. House of 
Representatives putting a position in there, as I understand 
it, what Senator Gillibrand has done, it is simply word for 
word, is that right, Senator?
    Senator Gillibrand. Yes.
    Senator Sanders. Taken that language, I would hope that we 
could all support that proposition. Thank you.
    Senator Inhofe. Others who want to be heard? Yes, Senator 
Whitehouse.
    Senator Whitehouse. Mr. Chairman, the issue that I was most 
engaged with in these conversations was the question of 
preemption generally and specifically, the question of the so 
called death zone between the initial announcement of EPA 
interest in regulating and the ultimate EPA rule. Indeed, I 
coined the term death zone.
    As those who were in the negotiations will know, that was a 
really important issue to me. My belief is that the Vitter 
amendment gets rid of the death zone. I know that this was an 
agreement late reached, and colleagues are going to need to 
take some time to review it themselves. But my view of this is 
that the restriction on States in regulating during that period 
first has been narrowed, and second, it has been limited to the 
principles that exist first, if you look at the three 
exemptions, first, in the Commerce Clause of the United States 
Constitution. Second, in the Supremacy Clause of the United 
States Constitution. And third, in the Due Process Clause of 
the Constitution as it pertains to administrative agency 
action.
    So those are baselines that we are never going to go 
beyond. I think we reached a fair compromise. I intend to vote 
for Senator Gillibrand's amendment because I think it moves us 
in the right direction. But I want to make sure people are 
clear that in the view of the person who coined the phrase 
death zone, the death zone is gone as a result of this. And the 
regulatory restrictions that remain are those that are 
consistent with the baseline principles of the United States 
Constitution in those three amendments, one, two and three in 
the list in the new statute.
    Senator Inhofe. Others who wish to be heard? Yes, sir, 
Senator Merkley.
    Senator Merkley. Thank you, Mr. Chair. I will echo Senator 
Whitehouse's comments.
    But I also support this amendment. Here is why. We have a 
compromise strategy in the bill. But it is much more complex 
than simply capturing the language from the House side. And I 
wanted to clarify that I would disagree with our chairman in 
terms of the 50 different rulebooks. Because essentially, if 
one State acts on a chemical like fire retardants in our 
carpets that put poisonous, cancer causing chemicals into our 
children when they are just babies crawling on the rug, it 
actually creates an incentive for the Federal Government to go 
ahead and act. We have seen a Federal Government that has been 
paralyzed over acting on these toxic chemicals. So when one 
State acts, it strengthens the incentive and puts everybody on 
the same wavelength, yes, let's address this nationally, so we 
get that one common rulebook, rather than ending up with 50 
different ones. By the way, very few States have acted on very 
few chemicals over the last four decades. So we have had 
neither a really functioning Federal system or a functioning 
State system.
    But to the degree that they act, as Senator Gillibrand put 
out, they are addressing core health and safety issue. It works 
nicely in terms of incentivizing the Federal Government under 
this structure to be attentive and to be prompt in addressing 
substances of significant risk. That is why I will support the 
Gillibrand amendment.
    Senator Inhofe. Are there others who wish to be heard? 
Senator Markey.
    Senator Markey. Thank you, Mr. Chairman, very much.
    Without question, tremendous progress has been made. But 
the Gillibrand amendment goes right to the heart of the role 
whish the States have played over these many years. Twelve 
States have acted to regulate BPA. Seven States have regulated 
cadmium. Thirty States have regulated mercury. Twelve States 
have regulated flame retardants.
    What Senator Gillibrand's amendment does is to retain the 
authority--to ensure that the States are there as they have 
historically been. For example, in Massachusetts, the 
scientists from MIT and Harvard can help the State of 
Massachusetts to determine whether or not a particular chemical 
is something which is too dangerous to be on the market. And 
without question, and I think history makes this very clear, 
when the States act, it does tend to have the impact of 
changing the way in which the entire country has a relationship 
with one of the chemicals that are being dealt with.
    So I think that we should embrace the role that the State 
scientists have played over the years. I think it is a 
complementary but very important role. I think that the 
Gillibrand amendment acts to retain that role in its historic 
place. And I think it is very important for us to recognize 
that today in a vote on this amendment.
    I thank the gentlelady for her amendment. I yield back the 
balance of my time.
    Senator Inhofe. Do others want to be heard?
    Senator Boxer. Mr. Chairman, just very briefly. Senator 
Whitehouse, who coined the phrase, death zone, it is very 
reassuring to hear you say you think it is gone. I think that 
will be the subject of great debate as we move forward. I hope 
you are right. And I can't tell you how much I hope you are 
right.
    The fact is, my attorney general says there are major 
problems with, he calls it premature preemption of State 
authority, combined with unworkable conditions for a waiver of 
this preemption. So I am going to ask unanimous consent to put 
into the record my attorney general's view of the compromise. 
Again, I am very pleased that it looks like, I think, all of us 
on our side, I am not sure, will vote for the Gillibrand 
amendment. I just am prayerful that we will get some help on 
the other side from the people who say they are for States' 
rights.
    Senator Inhofe. Do others want to be heard?
    Senator Vitter. Mr. Chairman.
    Senator Inhofe. Senator Vitter.
    Senator Vitter. Briefly, Mr. Chairman, three points. First 
of all, it is a very conservative principle, because it is in 
the Constitution that things that are fundamentally about 
interstate commerce can be governed at the Federal level. 
Again, that is straight from the Constitution. There is not 
much more than is innately interstate commerce, in fact, it is 
international commerce, than what we are talking about, which 
are in products made and distributed around the country and 
around the world.
    Second, because of this, a very similar approach was struck 
by Senator Feinstein in a bill regarding some cosmetic products 
reviewed by FDA, an extremely analogous approach in that bill. 
So this is used and adopted all the time.
    Third, with regard to comments about a House bill, that 
House bill is a much, much narrower measure, not a broad TSCA 
reform measure. So that is really comparing apples and 
orangutans.
    Senator Inhofe. Thank you, Senator Vitter.
    If there are no further statements or questions on the 
amendment, is there a motion to adopt the Gillibrand amendment?
    Senator Whitehouse. So moved.
    Senator Inhofe. Is there a second?
    Senator Boxer. Second.
    Senator Inhofe. All in favor say aye.
    [Chorus of ayes.]
    Senator Inhofe. Opposed, no.
    [Chorus of noes.]
    Senator Boxer. I ask for a recorded vote.
    Senator Inhofe. A recorded vote is in order. The Clerk will 
call the roll.
    The Clerk. Senator Barrasso.
    Senator Barrasso. No.
    The Clerk. Mr. Booker.
    Senator Booker. Yes.
    The Clerk. Mr. Boozman.
    Senator Boozman. No.
    The Clerk. Mrs. Boxer.
    Senator Boxer. Aye.
    The Clerk. Mrs. Capito.
    Senator Inhofe. No by proxy.
    The Clerk. Mr. Cardin.
    Senator Boxer. Aye by proxy.
    The Clerk. Mr. Carper.
    Senator Carper. No.
    The Clerk. Mr. Crapo.
    Senator Crapo. No.
    The Clerk. Mrs. Fischer.
    Senator Fischer. No.
    The Clerk. Senator Gillibrand.
    Senator Gillibrand. Aye.
    The Clerk. Senator Markey.
    Senator Markey. Aye.
    The Clerk. Senator Merkley.
    Senator Merkley. Aye.
    The Clerk. Senator Rounds.
    Senator Rounds. No.
    The Clerk. Senator Sanders.
    Senator Sanders. Aye.
    The Clerk. Senator Sessions.
    Senator Inhofe. No by proxy.
    The Clerk. Senator Sullivan.
    Senator Inhofe. No by proxy.
    The Clerk. Senator Vitter.
    Senator Vitter. No.
    The Clerk. Senator Whitehouse.
    Senator Whitehouse. Aye.
    The Clerk. Mr. Wicker.
    Senator Wicker. No.
    The Clerk. Mr. Chairman.
    Senator Inhofe. No.
    The Clerk. Mr. Chairman, the yeas are 8, the nays are 12.
    Senator Inhofe. The amendment has failed.
    Senator Boxer. Can I offer an amendment or do you want me 
to defer? Is it all right if I offer my amendment?
    Senator Inhofe. Yes, of course.
    Senator Boxer. All right. I would call up Boxer-Sanders-
Markey No. 1. I ask unanimous consent that Senator Gillibrand 
be added as a co-sponsor.
    Senator Inhofe. First of all, let me clarify, the statement 
I should have made was that we were going to further 
amendments. So that particular amendment failed. You are 
recognized for what amendment?
    Senator Boxer. I ask to call up Boxer-Sanders-Markey No. 1 
and ask unanimous consent that Senator Gillibrand be added as a 
co-sponsor.
    Senator Inhofe. Without objection. Please proceed.
    Senator Boxer. This amendment is named after Alan 
Reinstein, who sadly lost his life to mesothelioma. His widow, 
Linda Reinstein, who is the co-founder of the Asbestos Disease 
Awareness Organization, is here with us today. Linda, I would 
ask you to stand.
    Tragically, Linda should be celebrating her 30th wedding 
anniversary with her husband, Alan. But instead, she is 
clutching his burial flag.
    Asbestos kills 10,000 people a year. As Linda reminds us, 
``For every life lost from an asbestos-caused disease, a 
shattered family is left behind.'' I have met her daughter, and 
I know that that is right.
    Our amendment would require expedited action on all forms 
of asbestos. EPA would have to complete a safety assessment and 
determination within 2 years and promulgate a final rule within 
3 years. The Vitter-Udall bill, as introduced, and the Vitter 
substitute amendment, does not even mention the word asbestos. 
And experts say that regulation of asbestos under the Udall-
Vitter bill will never happen.
    Asbestos, a lethal substance, is still legal in the U.S., 
even though it has been banned in most developed nations. There 
is absolutely no reason to delay action any further. This 
amendment will enable the EPA to once and for all ban asbestos. 
I urge my colleagues to support the amendment.
    [The text of Boxer-Sanders-Markey Amendment No. 1 follows:]
    
    
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]  
  
    
    Senator Inhofe. Others who wish to be heard?
    Senator Vitter. Mr. Chairman.
    Senator Inhofe. Senator Vitter.
    Senator Vitter. Mr. Chairman, I am opposing the amendment. 
The bill does not mention the word asbestos because the bill 
doesn't mention any specific chemical or substance. That is not 
an appropriate regulatory framework to set out. We are not 
picking and choosing and pointing to specific substances.
    Second, the EPA has made perfectly clear that this bill 
gives them full authority and ability to take up asbestos, 
among other things, as a high priority chemical. So there is no 
debate that this bill would not give them full authority to do 
that. That is extremely clear, including directly from the EPA.
    Senator Inhofe. Others who wish to be heard? Senator 
Markey.
    Senator Markey. Thank you, Mr. Chairman, very much.
    Yes, Senator Boxer and I had a press conference in this 
room with Linda Reinstein about 6 weeks ago, talking about this 
issue. It is not just asbestos, it is more than that. But 
asbestos is the worst of the worse. EPA first tried to ban 
asbestos in 1989, more than 50 countries have already banned 
this substance because of the dangers to public health. The 
safety risks and hazards of asbestos are well known.
    Unfortunately, under this bill, despite having decades of 
information about the hazards of asbestos and the impacts to 
human health, the EPA is still required to go through a lengthy 
review process. In the meantime, Americans will be exposed for 
years to come from this asbestos danger.
    This amendment is important because it will direct the EPA 
to telescope the timeframe of its review and risk management, 
shaving off years of delay allowed for in this underlying bill 
that we are now considering. I think it is important to adopt 
this amendment at this time, and I urge my colleagues to do so.
    I thank you, Linda, and I thank all of those in the 
asbestos community for standing up and raising this issue. From 
1989 to today is a quarter of a century. It is time for us to 
act. I yield back the balance of my time.
    Senator Inhofe. Thank you, Senator Markey.
    Other Senators? Senator Whitehouse.
    Senator Whitehouse. Mr. Chairman, I intend to support this 
amendment. I think it is a good amendment. But again, in the 
interest of clarity, I would like to point out what the recent 
compromise does in this area. That is to take chemicals like 
asbestos and others like formaldehyde, that have been heavily 
studied by Federal agencies and by our national institutes, and 
allow that work and those findings to be taken notice of and 
adopted by EPA. So it will accelerate the way in which EPA can 
address these chemicals that have received a lot of attention.
    So I just want to make that clear about the way in which we 
address the issue of asbestos and other well known harmful 
chemicals in the bill. I appreciate for my colleagues, that is 
not everything we would want. And again, I support this 
amendment. But I want to make clear that that is what was 
accomplished in the recent amendments.
    Senator Inhofe. Thank you, Senator Whitehouse.
    Other Senators? Senator Boxer.
    Senator Boxer. I wanted to address just a couple of points 
that were raised. To Senator Vitter, I never heard of a 
situation where because no other chemical is mentioned you 
can't mention a chemical. The reason you do bills is to take 
action that you want to take.
    If you wanted to take action on asbestos, and as Senator 
Markey said, this has been an issue since a quarter of a 
century ago, you put it in the bill. This is a free country. 
And you write a bill, and you take care of the things that are 
important.
    I also want to make a point that I do so appreciate what 
Senator Whitehouse has stated. But we have to be clear. In the 
underlying Vitter amendment, there is no deadline for 
implementation, even after a chemical is deemed unsafe. There 
are deadlines to get it to that point, but there is no 
timeline. That is why in our amendment, we say enough is enough 
when it comes to a chemical that is killing 10,000 people a 
year. Some of your constituents, some of my constituents. Just 
a tiny bit of that gets in the lung, and it is over.
    And if we can't at least come together on this and 
remember, the whole TSCA was really based around--the TSCA case 
was based around the issue of asbestos. The bill wasn't strong 
enough at that time. So we want to make this bill strong. This 
is an opportunity to add to the improvements that Senators 
Whitehouse, Merkley, and Booker made along with Senators Vitter 
and Udall. Let's make this bill matter.
    And I want to say to the Asbestos Awareness Organization, 
you are my heroes. You are my heroes. Because you didn't listen 
to oh, forget it, the bill has a great name, everything is 
fine. You read the bill, your lawyers looked at the bill, and 
we saw how weak it was. And we have strengthened it because of 
the work of my colleagues, Senators Udall and Vitter being 
willing, because of you and the people out there and the 450 
groups.
    But let's make this bill better, and let's put asbestos in 
there. Yes, mention it. You mentioned PBTs, which you didn't do 
before. Now, happily, you have put that in there. You 
mentioned, you changed it to mention PBTs. Change it to mention 
asbestos. I hope we will have a good vote on this, and I would 
ask that we have a recorded vote on this.
    Senator Inhofe. Senator Sanders.
    Senator Sanders. Mr. Chairman, as I understand it, dozens 
of countries around the world either restrict or ban asbestos.
    Senator Boxer. That is right.
    Senator Sanders. The United States should not be behind 
dozens of other countries. So if we are dealing with a bill 
addressing toxic chemicals, clearly asbestos should be front 
and center. I strongly support this amendment.
    Senator Inhofe. Thank you.
    Senator Booker.
    Senator Booker. Thank you. Just very briefly, I support the 
amendment. I am grateful for the indefatigable persistence of 
Senator Boxer and her leadership as well as others of my 
colleagues. So I support the amendment.
    I do have to leave very soon. I have given my proxy votes 
over. I just want to thank, in general, Senator Boxer and 
Senator Inhofe for supporting the negotiation process in which 
Senator Whitehouse, Senator Merkley and myself have been 
pushing for and working with Senator Vitter and Senator Udall 
in improving this legislation. The gains that were made, as 
have been mentioned multiple times by Democrats and Republicans 
on this committee, have been significant and have taken it a 
long way. I support these amendments that we are going through 
now, because they can make it even better.
    But as a new Senator, the experience I have had in working 
in partnership and trying to improve something has been a very 
good one, and I am very encouraged by the process. Again, for 
the record, I want to say I support this amendment that is up 
right now. I am grateful for Senator Boxer's continued efforts.
    Senator Inhofe. Thank you, Senator Booker.
    Others who wish to be heard?
    Senator Booker. Mr. Chairman, I am sorry, may I put my 
statement, my full statement, into the record?
    Senator Inhofe. Yes, your full statement will be in the 
record.
    [The prepared statement of Senator Booker follows:]
    
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
  
    
    Senator Inhofe. The Boxer Amendment No. 1 is before us. Is 
there a motion?
    Senator Whitehouse. So moved.
    Senator Inhofe. Second?
    Senator Boxer. Second.
    Senator Inhofe. And a roll call has been requested. The 
Clerk will call the roll.
    The Clerk. Mr. Barrasso.
    Senator Inhofe. No by proxy.
    The Clerk. Mr. Booker.
    Senator Booker. Yes.
    The Clerk. Mr. Boozman.
    Senator Inhofe. No by proxy.
    The Clerk. Mrs. Boxer.
    Senator Boxer. Aye.
    The Clerk. Mrs. Capito.
    Senator Capito. No.
    The Clerk. Mr. Cardin.
    Senator Boxer. Aye by proxy.
    The Clerk. Mr. Carper.
    Senator Carper. Aye.
    The Clerk. Mr. Crapo.
    Senator Inhofe. No by proxy.
    The Clerk. Mrs. Fischer.
    Senator Fischer. No.
    The Clerk. Mrs. Gillibrand.
    Senator Gillibrand. Aye.
    The Clerk. Mr. Markey.
    Senator Markey. Aye.
    The Clerk. Mr. Merkley.
    Senator Merkley. Aye.
    The Clerk. Mr. Rounds.
    Senator Inhofe. No by proxy.
    The Clerk. Mr. Sanders.
    Senator Sanders. Aye.
    The Clerk. Mr. Sessions.
    Senator Inhofe. No by proxy.
    The Clerk. Mr. Sullivan.
    Senator Inhofe. No by proxy.
    The Clerk. Mr. Vitter.
    Senator Vitter. No.
    The Clerk. Mr. Whitehouse.
    Senator Whitehouse. Aye.
    The Clerk. Mr. Wicker.
    Senator Inhofe. No by proxy.
    The Clerk. Mr. Chairman.
    Senator Inhofe. No.
    Senator Boozman, would you like to be personally recorded?
    Senator Boozman. Yes, Mr. Chairman, I would like to be 
personally recorded as a no. Thank you, Mr. Chairman.
    The Clerk. Mr. Chairman, the yeas are 9, the nays are 11.
    Senator Inhofe. The amendment has failed.
    Other amendments? Senator Markey.
    Senator Markey. Markey No. 1.
    Senator Inhofe. Number 1, all right. Senator Markey, please 
proceed.
    Senator Markey. Mr. Chairman, thank you very much. This is 
an alternative way of dealing with the asbestos issue without 
naming asbestos or any dangerous chemicals. Because there are 
some chemicals for which we already have decades of data. We 
already know that they leech out of furniture or plastic, how 
they get into people's bodies, how they cause disease and even 
cause deaths.
    There are chemicals that have been studied by independent 
scientists at the National Institutes of Health, the National 
Academy of Sciences, or the World Health Organization and have 
been determined to cause cancer or have other serious, chronic 
health impacts. Some of these chemicals have even been banned 
by other countries. Yet under the bill, even those chemicals 
would be subject to further study by the EPA, causing even 
further delay in protecting the health of American citizens.
    A perfect example of such a chemical is asbestos. We have 
more than 50 years of data on asbestos, and the harms it causes 
to human health, including lung cancer and mesothelioma. More 
than 50 countries have already banned asbestos. The 
International Agency for Research on Cancer has listed it in 
its highest and most dangerous cancer category. The EPA already 
attempted to ban asbestos but was challenged by industry, and 
the ban was struck down by the court.
    Under this bill, EPA would have to start at the beginning 
of a 7-year process to issue a regulation protecting the 
American public from the dangers of asbestos. Although the 
manager's amendment does encourage EPA to be more efficient by 
using work done by the National Academies of Sciences and other 
Federal agencies, it does not allow EPA to take immediate steps 
to protect the public.
    Under my amendment, chemicals which have already been 
deemed by EPA to be worthy of further assessment and have also 
been deemed as a carcinogen by either the National Institutes 
of Health or the National Academies of Science or the World 
Health Organization or have been banned by a foreign country 
would be eligible for fast regulation by the EPA.
    This discretionary authority would allow the EPA to step in 
and protect the public from the chemicals we already know are 
the worst of the worst without having to go through a lengthy 
re-review and assessment. Some of these chemicals have already 
been reviewed, over and over again. To add another 7 years, 
when we already know what the problem is, to tie the hands of 
the EPA, really in my opinion is unnecessary. It is why I have 
made my amendment, and I urge an aye vote from my colleagues.
    [The text of the amendment No. 1 offered by Senator Markey 
follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Senator Inhofe. Thank you, Senator Markey.
    Others who want to be heard?
    Senator Vitter. Mr. Chairman, I oppose this amendment. With 
all due respect, I think this is sort of the fire, ready, aim 
amendment. This bill gives EPA full authority to do its work as 
quickly as it can but to go through the proper procedure and 
safety assessments to do that, not to reach conclusions first. 
Now, if there is a body of evidence, as there may be in certain 
cases, EPA has full authority to take into account that 
research, that body of evidence. But this amendment goes way 
beyond that, and essentially has EPA acting before doing that 
proper work.
    Now, again, if EPA can reach conclusions more quickly in 
some cases because of that work that is existing, this 
underlying bill absolutely allows EPA to take that into 
account, but doesn't let it reach a conclusion first and then 
look at the evidence. So I oppose this amendment.
    Senator Inhofe. Senator Boxer.
    Senator Boxer. Yes, thank you.
    I just want to say, the National Academy of Science, if you 
were to stop someone in the street and say, who do you believe 
more, Senators or the National Academy of Sciences when it 
comes to protecting the health of the people? We all know it 
would be 100 to nothing if you asked 100 people.
    All Senator Markey is saying, and I just don't understand 
the reluctance to accept this. It just shows me such a closed 
mind and where you really stand on this issue. This is simply 
saying that if the National Academy of Sciences has found that 
chemicals are particularly harmful and dangerous, why do we 
need to just reinvent the wheel and tell EPA, well, ignore all 
that, let's just go? This is such a common sense, taxpayer 
saving amendment. And that is the point. I really hope we can 
just break the logjam here and at least accept this very simple 
amendment.
    I thank the Senator for it.
    Senator Markey. If the gentlelady would yield.
    Senator Boxer. I would yield.
    Senator Markey. I thank the Senator. And again, that is the 
point.
    Senator Boxer. Gentlelady. I haven't heard that since I was 
in the House a thousand years ago.
    [Laughter.]
    Senator Markey. Why waste time and money when the most 
renowned scientific bodies in the world have already determined 
that something causes cancer? Already determined that something 
causes cancer. Why have another 7-year process? It is pretty 
common sense here and it will save money. Again, I yield back.
    Senator Boxer. Yes, and 85 percent of the budget of the 
National Academy of Sciences is paid for by, guess by whom? 
Your taxpaying public. So why not save funds, utilize the 
National Academy of Sciences on this? As I say, I can 
understand why you might object to some other amendment. But I 
do not get why you would object to this amendment.
    Senator Inhofe. Is there a motion?
    Senator Boxer. I do so move.
    Senator Inhofe. Is there a second?
    Senator Markey. Second. I request a roll call vote, Mr. 
Chairman.
    Senator Inhofe. A roll call vote has been requested on 
Markey No. 1. The Clerk will call the roll.
    The Clerk. Mr. Barrasso.
    Senator Inhofe. No by proxy.
    The Clerk. Mr. Booker.
    Senator Boxer. Aye by proxy.
    The Clerk. Mr. Boozman.
    Senator Boozman. No.
    The Clerk. Mrs. Boxer.
    Senator Boxer. Yes.
    The Clerk. Mrs. Capito.
    Senator Capito. No.
    The Clerk. Mr. Cardin.
    Senator Boxer. Mr. Cardin votes aye, and said he wanted to 
tell you, Mr. Chairman, he wanted to be here but he is managing 
with Senator Corker the bill on the floor. So we really miss 
him, but he has to be on the floor.
    Senator Inhofe. Thank you.
    The Clerk. Mr. Crapo.
    Senator Inhofe. No by proxy.
    The Clerk. Mrs. Fischer.
    Senator Fischer. No.
    The Clerk. Mrs. Gillibrand.
    Senator Gillibrand. Aye.
    The Clerk. Mr. Markey.
    Senator Markey. Aye.
    The Clerk. Mr. Merkley.
    Senator Merkley. Aye.
    The Clerk. Mr. Rounds.
    Senator Inhofe. No by proxy.
    The Clerk. Mr. Sanders.
    Senator Sanders. Aye.
    The Clerk. Mr. Sessions.
    Senator Inhofe. No by proxy.
    The Clerk. Mr. Sullivan.
    Senator Inhofe. No by proxy.
    The Clerk. Mr. Vitter.
    Senator Vitter. No.
    The Clerk. Mr. Whitehouse.
    Senator Boxer. Aye by proxy.
    The Clerk. Mr. Wicker.
    Senator Inhofe. No by proxy.
    The Clerk. Mr. Chairman.
    Senator Inhofe. No.
    Senator Carper. Mr. Chairman, how am I recorded?
    The Clerk. You are not.
    Senator Carper. No.
    The Clerk. Mr. Chairman, the yeas are 8, the nays are 12.
    Senator Inhofe. The Markey Amendment No. 1 fails.
    Other amendments?
    Senator Markey. Mr. Chairman.
    Senator Inhofe. Senator Markey.
    Senator Markey. Thank you, Mr. Chairman. Markey Amendment 
No. 2, please.
    Senator Inhofe. Markey Amendment No. 2. Proceed.
    Senator Markey. Thank you, Mr. Chairman.
    This bill sets up a trial process to determine a chemical 
safety with the EPA serving as the judge and the jury. But this 
is no ordinary trial, because the chemical that is the 
perpetrator is not in custody and protected from harming the 
public while the trial is being conducted and the verdict is 
being deliberated. Bail is always granted, each and every time, 
to that chemical.
    Under this bill, the EPA has 1 year to come up with a 
screening process they will use to determine if a chemical is 
high priority. This is analogous to giving an entire year to 
determine who will serve on the grand jury. Once the grand jury 
is assembled, it has 6 months to determine if there is enough 
evidence to suggest a chemical is dangerous enough to public 
health to be indicted and listed as a high priority. And only 
then, after 18 months, can the actual trial begin.
    But this is not a normal trial, because under this bill, it 
could take anywhere from 3 to 5 years before the jury is 
required to make a decision. We are now as long as 6 and a half 
years, at this point, into a process. And the perpetrating 
chemical is still allowed to roam in our homes and on our store 
shelves, unfettered. If the jury decides that the chemical is 
indeed guilty of being unsafe, the judge then begins the 
sentencing process and will have 2 years under this bill to 
determine what types of restrictions should be placed on the 
chemical. In some cases, the judge may determine the chemical 
should be locked up for life, and in others the judge may 
decide it is enough to make the chemical register as a labeled 
offender.
    But what is alarming is that even after 8 and a half years 
of trial, the bill has no deadlines when the sentence actually 
starts. The judge may sentence this chemical to life in prison, 
but it may decide that sentence doesn't even have to start for 
another 20 years.
    All this time, all the way until the final sentence is 
started, all the rules implemented, the public's health remains 
in danger, and not even the States, not even the States can 
step in to act.
    My amendment simply requires that a time limit be placed on 
when an implementation or sentencing would begin. Under my 
amendment, after the final regulation is issued by the EPA, 
industry will have a minimum of 3 years to comply with the 
ability to extend for an additional 2 years if there is some 
technological reason that prevents earlier compliance.
    This would bring TSCA in line with other environmental 
statutes, like the Clean Air Act and the Clean Water Act, which 
also contain statutory deadlines for regulation, implementation 
or compliance. I urge my colleagues to support this simple, 
straightforward and incredibly important amendment. It says 
yes, this chemical has a right to due process, but it does not 
allow it to be open-ended. There have to be some deadlines, 
there have to be some limits. That I think is what is missing 
from this bill at this time. I urge an aye vote from my 
colleagues.
    [The text of the amendment No. 2 offered by Senator Markey 
follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Senator Inhofe. Thank you, Senator Markey.
    Are there others who wish to be heard?
    Senator Vitter. Mr. Chairman.
    Senator Inhofe. Senator Vitter.
    Senator Vitter. Mr. Chairman, I oppose this amendment. The 
bill already has clear language that phase-outs, for instance, 
of chemical substances shall be implemented in ``as short a 
period as practicable'' and dates by which compliance is 
mandatory ``shall be as soon as practicable.'' EPA wants the 
flexibility to deal with a lot of different situations that 
will be posed, thousands of different situations and different 
degrees of implementation. So this gives that to them but 
certainly mandates that they get about that as quickly as 
possible.
    Senator Inhofe. Other Senators?
    Senator Boxer. Mr. Chairman.
    Senator Inhofe. Senator Boxer.
    Senator Boxer. If I could thank Ed for this, and also, 
Senator Markey, your, as Senator Carper said, extremely 
interesting way of explaining the criminal chemical at stake. 
Let's just be clear. When all the dust settles and everyone has 
a chance to read this bill, without this amendment, there are 
no deadlines to act on a chemical that is dangerous. You heard 
it, 20 years, maybe that is good enough for some of your 
grandkids, but it ain't good enough for mine. This is 
outrageous. This compromise, which moves forward in four or 
five areas, has not moved forward on deadlines for action.
    So you don't have to be all that cynical to understand that 
with all the pages and with all the descriptions, nothing 
really has to happen at any time in the universe. And that is 
why we offered action on asbestos in a certain timeframe.
    And by the way, I got a note from one of the groups sitting 
out there, very interesting, that PCBs were the only chemicals 
mentioned in the last TSCA, which was so unsuccessful. But that 
was the only example of where there was protective action. So 
this idea that you can't mention a chemical and you shouldn't 
have deadlines, that is coming, in my opinion, straight from 
the hearts and minds of chemical companies. Of course they 
don't want it. They don't want to have to act. So they come to 
the table and they agree to something, and at the end of the 
day, there is no deadline for them to have to act. So what is 
the use of it?
    And I think the fact that Republicans have so far in group 
voted against every single perfecting amendment says reams 
about this bill. I hope that we can pass this. Because it is a 
3-year deadline for the manufacturer to comply. And the 
deadline could be extended for 2 years.
    If you said to somebody in the street, again, there is a 
dangerous chemical, when do you think it ought to be taken out 
of your products? You know what they would say? Yesterday. Take 
it out of my products. And it gives them 5 years, and that is 
not good enough for Senator Vitter. Again, I am perplexed at 
the fact that we are not taking some of these perfecting 
amendments.
    Senator Inhofe. Is there a motion? Oh, Senator Sanders.
    Senator Sanders. Just a word. I am so delighted to hear the 
great confidence that my Republican colleagues now have in the 
EPA.
    [Laughter.]
    Senator Sanders. It is really nice to hear all these 
converts. I remember when Gina McCarthy was up here, we didn't 
quite hear those words. And we don't hear them in the budget, 
where the goal of many Republicans is to decimate the funding 
of the EPA. So I hope that you will remember what you are 
saying today and the great confidence you have in that agency, 
they will be well funded, and you will treat the administrators 
with respect.
    Senator Inhofe. Is there a motion?
    Senator Boxer. Yes, I move the Markey amendment.
    Senator Inhofe. Is there a second?
    Senator Markey. Second.
    Senator Inhofe. The vote is on the Markey Amendment 2. All 
those in favor, say aye.
    [Chorus of ayes.]
    Senator Inhofe. Opposed, no.
    Senator Boxer. Recorded vote.
    Senator Inhofe. Recorded vote is requested. The Clerk will 
call the roll.
    The Clerk. Mr. Barrasso.
    Senator Barrasso. No.
    The Clerk. Mr. Booker.
    Senator Boxer. Aye by proxy.
    The Clerk. Mr. Boozman.
    Senator Boozman. No.
    The Clerk. Mrs. Boxer.
    Senator Boxer. Aye.
    The Clerk. Mrs. Capito.
    Senator Capito. No.
    The Clerk. Mr. Cardin.
    Senator Boxer. Aye by proxy.
    The Clerk. Mr. Carper.
    Senator Carper. Aye.
    The Clerk. Mr. Crapo.
    Senator Crapo. No.
    The Clerk. Mrs. Fischer.
    Senator Inhofe. No by proxy.
    The Clerk. Mrs. Gillibrand.
    Senator Gillibrand. Aye.
    The Clerk. Mr. Markey.
    Senator Markey. Aye.
    The Clerk. Mr. Merkley.
    Senator Merkley. Aye.
    The Clerk. Mr. Rounds.
    Senator Rounds. No.
    The Clerk. Mr. Sanders.
    Senator Sanders. Aye.
    The Clerk. Mr. Sessions.
    Senator Inhofe. No by proxy.
    The Clerk. Mr. Sullivan.
    Senator Inhofe. No by proxy.
    The Clerk. Mr. Vitter.
    Senator Vitter. No.
    The Clerk. Mr. Whitehouse.
    Senator Whitehouse. Aye.
    The Clerk. Mr. Wicker.
    Senator Inhofe. No by proxy.
    The Clerk. Mr. Chairman.
    Senator Inhofe. No.
    The Clerk. Mr. Chairman, the yeas are 9, the nays are 11.
    Senator Inhofe. And the amendment fails.
    Other amendments?
    Senator Boxer. Yes, Mr. Chairman.
    Senator Inhofe. First of all, let me thank Senator Boxer, 
because she had a long list of amendments, and she has agreed 
to just pare them down to three. That is very respectful of 
everyone's time. Thank you.
    Senator Boxer. Absolutely. And should this get to the 
floor, you will hear all of them.
    [Laughter.]
    Senator Boxer. I am so fond of you, Mr. Chairman, I just 
didn't want to ruin your morning completely.
    So I have Boxer-Carper Amendment No. 3, please.
    Senator Inhofe. You are recognized.
    Senator Boxer. This amendment will protect contamination of 
drinking water supplies from chemical spills, such as the 
Freedom Industry spill in West Virginia. This amendment 
requires consideration of whether a chemical substance is 
stored near drinking water sources when prioritizing chemicals 
for assessments.
    Communities need to know that the chemicals stored near 
streams and rivers supplying their drinking water have been 
assessed and that the potential for a spill is taken into 
account. And if, God forbid, a spill happens, they know what 
chemical it is, and they know what steps to take. I remember 
the West Virginia spill, going through with my colleagues from 
West Virginia, the most frightening part was at first no one 
knew what was in there. So we need to know what is stored near 
drinking water supplies.
    The people of Charleston, West Virginia, found out the hard 
way that the chemical that was spilled from the Freedom 
Industries facility had not been assessed. No one knew what 
effect the chemical would have on human health from using their 
water for drinking, cooking or bathing. It is just simple, 
common sense that EPA should place a priority on assessing 
those chemicals that pose a risk to our drinking water. I urge 
my colleagues to support this amendment.
    [The text of the Boxer-Carper Amendment No. 3 follows:]
    
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]  
    
     
    Senator Inhofe. Others wanting to be heard?
    Senator Carper. Mr. Chairman.
    Senator Inhofe. Senator Carper.
    Senator Carper. Mr. Chairman, there is an old saying that 
where we stand on a particular issue depends on where we sit. I 
sit here with all of you in the Senate, I spend a lot of time 
in Delaware. But when I was a kid, I started my life in West 
Virginia. Never lived in Charleston, I was from Beckley. Lived 
there about 6 years until we moved on to Virginia.
    This is an issue that is important to me on a personal 
level and to my family, I have a lot of family still living, as 
Senator Capito knows, a lot of family still living in West 
Virginia. This is an issue that is very much on their minds. 
They would want me to join Senator Boxer not only in supporting 
this amendment, but in co-sponsoring it. And I am pleased to do 
so.
    I am going to take this moment, I may not have the time 
later on, just to say how grateful I am to you, Mr. Chairman, 
to you, Senator Vitter, to Senator Udall, to Senator Merkley, 
to Senator Whitehouse, to Senator Booker, Senator Boxer and all 
who have worked to make this bill better. We started off with 
legislation offered by Senator Lautenberg, whom we all revere. 
And I will be honest with you, as much as I loved Frank, it 
wasn't the best bill that he ever introduced. The collective 
efforts of a lot of people on both sides of the bill have taken 
this legislation so much farther down the road where it needs 
to go.
    The people came to me, Mr. Chairman, after the election of 
last November 1, people want us to work together, they want us 
to get things done, they want us to find ways to strengthen the 
economic recovery. This legislation provides certainty and 
predictability for the chemical industry, which they want, and 
which they need. But at the same time, it speaks to the need 
for protecting our public health and protecting our environment 
in ways that the original legislation did not do. So I just 
want to thank each of you for that terrific bipartisan effort 
to get us to a much better place.
    I want to thank Collin Peppard, a member of my staff who 
has worked so hard with Democrat and Republican staff in this 
regard. I would thank the staff members of both sides that have 
worked tirelessly for days, weeks, months now, years to get us 
to a better place. Thank you.
    Senator Inhofe. Thank you, Senator Carper.
    Senator Vitter.
    Senator Vitter. Mr. Chairman, I oppose this amendment. 
Section 4(a) of the underlying bill already addresses the 
hazard and exposure potential of the chemical substances being 
directly taken into account. EPA can absolutely and should and 
will take into account that sort of factor. So that is already 
in section 4(a) of the bill. So I oppose the amendment.
    Finally, Mr. Chairman, let me say, the reason we are 
defeating these amendments is not because we are not open-
minded, it is because we are and have been open-minded, have 
been working with all folks who have come to the table for a 
serious work effort for months and months and months. All sorts 
of changes have been happily taken and incorporated into the 
bill. Senator Boxer was not an active part of that process; 
that is her right. But that is what has been going on for 
months.
    So now we face a choice, to adopt a lot of things that are 
going to disrupt the balance of the bill, in which case we will 
have the status quo, the present TSCA, unreformed, unimproved 
for the foreseeable future. Or to move forward with the first 
major bipartisan piece of environmental legislation in years. I 
strongly urge us to do the latter.
    Senator Boxer. Mr. Chairman.
    Senator Inhofe. Senator Boxer.
    Senator Boxer. I want to respond to this, my colleague said 
I wasn't part of the process. Well, maybe I wasn't in secret 
negotiations, that is true. But I was part of the process, 
because I was being briefed on what was happening. And working 
with everyone to get to the place we got.
    I had several press conferences, because I knew that you 
were working to try and move this bill forward, and you did. So 
it doesn't mean because a lot of us weren't in that room, and I 
had asked my colleagues to go and negotiate, because I think 
someone who is a good chairman or a good ranking member knows 
the personalities, knows how it can get done. This is what you 
do.
    And maybe Senator Inhofe wasn't in that room, but I know he 
trusted you, David, to do what you did. And I trusted my 
colleagues. And they checked in with me. And when it was going 
down a bad path, David, I told them it was going down a bad 
path.
    So here is where we stand. Not all genius resides in a 
quiet room in the Capitol. That is the point of this. And what 
I see here is a complete disinterest, because people weren't in 
that room, in that secret room, a disinterest in working 
together on the Republican side. Now, maybe it will change, 
maybe we will get a couple of Republican votes on some of these 
amendments. But I just don't understand that kind of a process.
    And I don't think the people out there want that kind of a 
process. They want bills to continue to be improved. When they 
get out of a secret room and a back room which sometimes is 
necessary to move something forward, they want to see us 
continue to work. They don't want to see it shut down and have 
all Republicans vote no, every single time. It doesn't give a 
good feeling that this is on the level.
    So you are right, I wasn't in the room. But I was very much 
a part of what was happening. And it is not just me, it is a 
lot of other members here who I also talked to who weren't in 
the room, if I might say. And they all were involved in this. 
So the bill is better in three or four areas, much better. And 
we can make this bill a bill we can be proud of.
    I believe if these amendments had passed this would be on 
the way to being one heck of a bill. But we couldn't get 
Republicans to support what I think are very, very reasonable, 
reasonable amendments. Now, we got the substitute yesterday. 
OK, let's be clear. And we have put all of our energy into 
analyzing the substitute, because we knew the parameters, but 
we hadn't seen the language. And we will continue to critique 
the language, to embrace the language where we feel it is good.
    But this is a moving process. And just to say that you will 
never pass an amendment just because there was an agreement in 
a private room, that is not the kind of legislation that I 
think is right. You need to constantly improve. And I am 
hopeful now, maybe, maybe, maybe, we can get support for the 
Boxer-Carper legislation to say, and that is what is pending 
here, that we ought to make a priority, make it a priority to 
know what chemicals are stored near drinking water supplies. 
And if you vote no on this, I would say you need to answer to 
your constituents who say, Senator, why wouldn't you want to 
know what chemical is stored near my drinking water supply? 
Because we saw it happen in West Virginia. It was so upsetting 
because people didn't know what was in there. And the company 
that was storing, they then went out of business. It was a 
nightmare, they went bankrupt. It was very, very chaotic.
    This is simple. Just simple. And I beg you to think about 
it. All we are saying is to the EPA, make it a priority if a 
chemical is stored near a drinking water supply that you know 
what the chemical is and what to do if, God forbid, there is a 
spill. And I urge an aye vote, and I would move that amendment.
    Senator Inhofe. Is there a second?
    Senator Carper. Second.
    Senator Boxer. I would like a roll call.
    Senator Inhofe. A roll call has been requested. The Clerk 
will call the roll.
    The Clerk. Mr. Barrasso.
    Senator Barrasso. No.
    The Clerk. Mr. Booker.
    Senator Boxer. Aye by proxy.
    The Clerk. Mr. Boozman.
    Senator Boozman. No.
    The Clerk. Mrs. Boxer.
    Senator Boxer. Aye.
    The Clerk. Mrs. Capito.
    Senator Capito. Aye.
    The Clerk. Mr. Cardin.
    Senator Boxer. Aye by proxy.
    The Clerk. Mr. Carper.
    Senator Carper. Aye.
    The Clerk. Mr. Crapo.
    Senator Crapo. No.
    The Clerk. Mrs. Fischer.
    Senator Inhofe. No by proxy.
    The Clerk. Mrs. Gillibrand.
    Senator Gillibrand. Aye.
    The Clerk. Mr. Markey.
    Senator Markey. Aye.
    The Clerk. Mr. Merkley.
    Senator Merkley. Aye.
    The Clerk. Mr. Rounds.
    Senator Rounds. No.
    The Clerk. Mr. Sanders.
    Senator Sanders. Aye.
    The Clerk. Mr. Sessions.
    Senator Inhofe. No by proxy.
    The Clerk. Mr. Sullivan.
    Senator Inhofe. No by proxy.
    The Clerk. Mr. Vitter.
    Senator Vitter. No.
    The Clerk. Mr. Whitehouse.
    Senator Whitehouse. Aye.
    The Clerk. Mr. Wicker.
    Senator Inhofe. No by proxy.
    The Clerk. Mr. Chairman.
    Senator Inhofe. No.
    The Clerk. Mr. Chairman, the yeas are 10, the nays are 10.
    Senator Inhofe. The Boxer Amendment No. 3 failed to get a 
majority. It has failed.
    Other amendments?
    Senator Boxer. Yes.
    Senator Inhofe. Senator Boxer.
    Senator Boxer. Mr. Chairman, I call up Boxer Amendment No. 
5. It is Boxer-Markey-Sanders Amendment No. 5.
    Senator Inhofe. You are recognized.
    Senator Boxer. This amendment is identical to legislation I 
previously introduced with Senator Crapo, who is also a co-
sponsor of this amendment, to help communities determine 
whether there is a connection between clusters of cancer, birth 
defects and other diseases and contaminants in the surrounding 
environment. When the same disease impacts a family, 
neighborhood or community, people have a right to know if there 
is a common factor related to this cancer. This legislation 
will help our communities investigate and address devastating 
disease clusters as quickly as possible.
    Here is what the amendment does. It will strengthen Federal 
agency coordination and accountability when investigating 
potential disease clusters. It will increase assistance to 
areas impacted by potential disease clusters. It will 
authorized Federal agencies to form partnerships with States 
and academic institutions to investigate and help address 
disease clusters.
    And I want to add that it doesn't even occur unless a local 
community asks for this assistance. So if you believe in local 
government, and I started out as a county supervisor, and if 
you believe that local government should protect its people and 
they find that there is a cancer cluster in a local county or 
city, they just don't have the resources. This amendment would 
allow them to call on the Federal Government to help them 
assess why this cancer cluster is occurring.
    Again, when you see kids with cancer, you ought to think 
that they got it for a reason. Senator Crapo knows what that is 
like. He has worked with the young people in Idaho on this. And 
these disease clusters should get the help and attention they 
deserve. I hope we can do this now. If not, there is going to 
be a long debate on the floor about kids with cancer and why on 
earth this committee didn't do the right thing. So I am hoping 
maybe on this one we will pass this amendment.
    Senator Inhofe. Other Senators?
    Senator Vitter. Mr. Chairman.
    Senator Inhofe. Senator Vitter.
    Senator Vitter. Mr. Chairman, I oppose this amendment. This 
is, of all the ones we have discussed today, this is probably 
the most significant in terms of altering the bill, because it 
adds two entirely new titles to the bill, which are presently 
completely outside the scope of EPA's authority. EPA, through 
TSCA, addresses chemical risk assessment and management. It was 
never intended to address public health disease investigation 
and response. We do have agencies that do that. That is the 
Centers for Disease Control and Prevention, the CDC, and an 
agency within the CDC, its Agency for Toxic Substances and 
Disease Registry. That is what those specific Federal agencies 
are all about.
    This amendment would duplicate that work and would be a 
major power grab by EPA and a major change to put into their 
jurisdiction something which is completely outside their scope, 
and they have no proven expertise in terms of public health. So 
this is a big, big change to all sorts of present law, which I 
would oppose.
    Senator Inhofe. Other Senators? Senator Markey.
    Senator Markey. Thank you, Mr. Chairman, very much.
    First, I would like to thank Senators Merkley and 
Whitehouse and Booker. But to thank Senator Udall, working 
through Senator Vitter, on two provisions which are now in this 
underlying draft, which I very much was advocating to be 
included. I am very gratified that they are.
    The first is that the States have a new workable way to 
request permission from the EPA to protect their citizens from 
particular chemicals before EPA has finished studying them. I 
particularly appreciate the efforts to include that language, 
which I thought would make it easier for States to get their 
requests approved.
    I am also very gratified that my request to change or 
remove the so called unreasonable risk language in TSCA that 
was used by industry to argue that EPA hasn't properly 
considered the cost to industry when it sued to overturn EPA's 
asbestos ban was also included. So in both of those instances, 
I thank all the members for their help in getting that language 
into the bill that we are now debating. I think that is very 
helpful progress, and I thank Senators Udall and Vitter for 
their openness on having that included and the other Senators I 
mentioned for their help as well.
    On the amendment which the Senator from California is 
making, back in Woburn, Massachusetts, in the late 1970s, there 
was a mother, Ann Anderson, who had a little boy, Jimmy, who 
had contracted leukemia, cancer. And she found, just by 
accident initially and then by her own work, other young 
children in that same neighborhood who also had cancer, 
leukemia. It was her work and then ultimately work which was 
brought to the attention of the EPA and the Federal Government 
that led to the book, A Civil Action, which helped to highlight 
the problems that existed with these cancer clusters that were 
being identified across the United States. And it was very 
helpful in ensuring that there was a strengthened Superfund 
law, which would be able to ensure that there was quicker 
attention which was paid to these sites as they were identified 
across the country.
    What Senator Boxer's amendment does is to say that these 
disease clusters must be more quickly identified and 
investigated so that they are dealt with. They pose really 
serious issues that clearly could help families, ordinary 
families across the country in a much more expedited fashion. I 
think this is a very important amendment to be adopted. I thank 
the Senator for making it, and I urge an aye vote.
    Senator Inhofe. Other Senators?
    Senator Sanders. Very briefly, Mr. Chairman. Epidemiology 
is one of the most important tools that science has. It tells 
us why people in a certain part of the country or people who do 
certain types of work come down with certain types of illness. 
And it is a remarkable tool. I think we should do everything 
that we can to encourage science based on the evidence that 
takes place in looking at clusters. And I hope very much that 
we could pass this amendment.
    Senator Inhofe. Senator Merkley.
    Senator Merkley. Thank you, Mr. Chair.
    Sometimes when you think about a disease cluster, you may 
be thinking about issues of vaccinations or lack thereof, or a 
whole series of issues related to viruses or bacterial 
infections and so forth. But in this case, this amendment is 
targeted at something that is very relevant to EPA, and that is 
cancers and the possibility that that cancer cluster is being 
caused by some toxic substance.
    And in that sense, establishing a couple of response teams 
that would go out and look at a cancer cluster and try to 
determine if there is a toxic source is a sort of rapid 
response that makes a tremendous amount of sense. If they 
discover that there is toxic contamination driving this, then 
it will lead to measures that will protect many citizens from 
being the next victims of that toxic substance, the next 
victims of that cancer. So bringing the toxic chemical 
expertise of the EPA to bear is just the right type of 
partnership embedded in this amendment. Thank you.
    Senator Inhofe. Thank you.
    Other Senators? Senator Boxer.
    Senator Boxer. Mr. Chairman, one more plea to my colleagues 
on this. I think most of us know who Erin Brockovich is. She 
has stood by my side and by the side of Senators Markey, 
Whitehouse and others and various press conferences to point 
out the fact that these cancer clusters are occurring more and 
more across our Nation, particularly among children. And local 
communities, whether they are in Idaho or in California or West 
Virginia or Massachusetts or Oregon or wherever they may be, 
people are desperate to seek answers.
    Our bill doesn't add one penny, our amendment doesn't add 
one penny. We are using existing resources. Now, the last, my 
memory tells me, and my staff says my memory is correct, we 
voted this bill out of this committee without a problem. And 
the argument I hear from Senator Vitter is, this might add a 
new title to the bill. Who cares? You are writing a bill so you 
add another title to it if you make the bill better, and you 
make the bill stronger, who cares? This is a once in a lifetime 
thing. We are rewriting the toxic laws.
    If we can add a section that addresses asbestos that is 
killing people, 10,000 a year, if we can add a section that 
says, without any further costs, we can look at these cancer 
clusters, if we can add a section that says, we need deadlines 
to act on dangerous chemicals, and if we can add a section that 
says the States should have the ability to act, we are 
improving a bill that many still oppose. Many still oppose. And 
I will read that list when we get to final passage.
    We still have huge opposition to this bill. We have tried 
in good faith, both in the negotiating room with the door 
closed and now out front so everyone can see how we can make 
this bill better. This is the simplest thing. It has been voted 
out of this committee before without a dissenting vote. As far 
as I know, there is literally, even among the chemical 
association, very little objection to this that I have ever 
heard.
    Why don't we help local communities deal with cancer 
clusters? And so this is an opportunity to add that to this 
bill. And I hope we will say yes to that.
    Senator Boozman. Mr. Chairman.
    Senator Inhofe. Yes, Senator Boozman.
    Senator Boozman. I agree with Senator Sanders in the sense 
that epidemiology really is a remarkable tool. I also agree 
with Senator Boxer in the sense that this is a discussion that 
needs to be had.
    I guess my problem with the amendment is that we have an 
agency, the CDC, that that is really what they do. And within 
the agency, the Agency for Toxic Substances and Disease 
Registry, again, that is what they do. So the EPA is struggling 
to do the mission that they have. Again, I am going to vote 
against it. I am quite willing to have the discussion and see 
what we need to do.
    But logically, the place that this needs to go is within 
the CDC. That is what these individuals are trained for. And 
then also, beefing up the registry, doing whatever we need to 
do, again, in this regard. Thanks.
    Senator Boxer. May I respond to Senator Boozman? First, of 
all, thank you for your kind words about the intent of this 
amendment. And I really want to work with you on this. The 
bottom part of it, the bottom line is, this is a team effort to 
respond to cancer clusters. It includes the CDC. They are in 
the group. But they want more support. So hopefully, Senator, 
you and I can work on this and perfect it, so you feel 
comfortable.
    To me, if CDC is part of the leading part of the team, I 
don't really--it doesn't bother me who is the lead. What is 
important is taxpayers spend a lot of money on the CDC, on the 
chemical agencies we have, on EPA, on all of these 
organizations, National Academy of Sciences. Why not have them 
together come into Arkansas or into California or into West 
Virginia or Idaho or Louisiana when there is a problem? So I 
hope that that, my friend's comments, would be an open 
invitation to maybe work together as we get this down on the 
floor.
    Senator Boozman. I would be glad to work on it. Again, the 
essence is, though, that the CDC needs to be the primary 
whatever.
    Senator Boxer. Well, we don't have a problem with that.
    Senator Boozman. I am again concerned, right now, we have 
finite dollars. It does make a difference in the sense that the 
EPA is working hard to do the mission that they currently have. 
So I think you dilute things, and it probably needs to----
    Senator Boxer. This doesn't add one dollar, so don't make 
like it does. This is taking the existing expertise in all the 
agencies to help. If you think CDC has the ability alone to 
send their teams out to 100 places in the country, you are 
mistaken. They don't. And this would say, and I think it is 
very fiscally sound, all the agencies that have a piece of this 
work together.
    So you can vote no and explain it however you want. But we 
are not adding one dime. We are just saying, let the taxpayer 
funds be used wisely. And when there is a cluster of children's 
cancer, and children are dying, send a team out there. Send a 
team out there. You want to argue, oh, it should be this person 
who is the head of it, OK. I will have that argument, I don't 
care.
    But there is so much bureaucratic stuff coming out here as 
to why we can't do what we are supposed to do to protect the 
health and safety of the American people, which to me is our 
fundamental responsibility. Our fundamental responsibility is 
to them. It is not to the chemical companies, and it is not to 
special interests. It is to the people of the United States of 
America. And some of them are suffering mightily. And if we had 
the ability to help them, so you add another little one page to 
your bill which you actually now have a brand new bill, you 
threw out the other one, thank God. So you have a new bill. Add 
another section to it. Let's protect the people.
    Senator Inhofe. Senator Vitter.
    Senator Vitter. Mr. Chairman, three comments in closing. 
First of all, just to correct the record, this proposal has 
always in the past had strong Republican opposition. No. 2, I 
would be happy to partner and look at improvements that may be 
necessary to make it the Centers for Disease Control and 
Prevention and its Agency for Toxic Substances and Disease 
Registry, if they don't have some authority they need, I will 
be eager to look at that in conjunction with anyone.
    No. 3, Senator Boxer and others have been arguing that EPA 
isn't going to act quickly enough in terms of the meat of this 
bill, and yet she wants to add a whole new area of endeavor, a 
brand new area of endeavor for EPA, which is epidemiology that 
they don't have expertise in. I do think this would set us back 
in terms of their focus, which is chemical risk assessment and 
management. Thanks, Mr. Chairman. I am opposing the amendment.
    Senator Inhofe. Senator Merkley.
    Senator Merkley. Thank you, Mr. Chair. I would like to ask 
unanimous consent to put into the record an article, Is There a 
Cancer Cluster in West Salem?
    Senator Inhofe. Without objection.
    [The referenced article follows:]
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
    Senator Merkley. And if I might just comment on it, this is 
a case where there was a rare bone cancer with multiple folk 
being affected in a very small area. And indeed, the EPA went 
out and investigated. Now, so this is not something the EPA, 
what these cancers, when there is a cluster, there is suspicion 
that a toxin is involved, this has been a key role. This is not 
the role of the CDC, this is the role of the EPA. And they held 
hearings, they held investigations.
    But to create these response teams with the expertise to 
respond in not such an ad hoc fashion would greatly increase 
the efficiency and coordination between the EPA and the CDC and 
the ability to have a team that is oriented to look at how this 
is developing in difference places across the country and take 
the lessons learned from one place to another. It is simply a 
smart, more efficient way of doing what EPA is already involved 
in.
    Thank you, Mr. Chair.
    Senator Inhofe. Senator Sanders.
    Senator Sanders. Mr. Chairman, when I was first elected to 
Congress in the 1990s, I worked very hard and successfully to 
establish what is called a cancer registry, and that is to give 
the CDC the tools that it needs to try to figure out why 
certain types of illnesses in West Virginia or in Wyoming are 
different than in Vermont and what did we learn from all of 
that.
    We know today, for example, breast cancer rates are 
different in the United States than they are in Japan. Why? 
What did we learn from that? We know that farmers, farmers who 
deal with a whole lot of fertilizer and chemicals, have high 
rates of certain types of cancer. We know that workers who are 
employed in certain types of factories, working with certain 
types of products, get higher rates of cancer. Why is that?
    We can learn an enormous amount. We learned from over in 
Massachusetts that certain types of chemicals put into drinking 
water caused disastrous results. So this is an area fertile for 
enormous scientific gains. I think we should encourage the EPA 
to be involved in this area. So I very strongly support this 
amendment.
    Senator Inhofe. Senator Carper.
    Senator Carper. Mr. Chairman, I will be honest with you, 
this is one I am torn on. And I think Senator Boxer is onto 
something here. I think the concerns pointed by Senator Vitter 
are not without substance. There is a role here for EPA, I 
think maybe for OSHA too. I am inclined to say that the Centers 
for Disease Control, maybe the Department of Health and Human 
Services should lead on this. But there is a role for EPA.
    Every now and then, on some of the other committees I serve 
on, someone will offer an amendment, and we know there is 
genuine interest, maybe bipartisan interest in trying to work 
and get something done on that. I don't know that this 
amendment is going to pass today, but I sure believe that when 
we report this bill out of committee, and I hope we will today, 
either with or without this amendment, if we do it without, my 
hope is we will come back and see if we can't find some way to 
come together on this issue.
    Thank you.
    Senator Inhofe. That is good. Is there a motion?
    Senator Boxer. So moved.
    Senator Inhofe. Second?
    Senator Sanders. Second.
    Senator Inhofe. The vote is on the Boxer Amendment No. 5.
    Senator Boxer. Recorded vote.
    Senator Inhofe. Recorded vote is requested. The Clerk will 
call the roll.
    The Clerk. Mr. Barrasso.
    Senator Barrasso. No.
    The Clerk. Mr. Booker.
    Senator Boxer. Aye by proxy.
    The Clerk. Mr. Boozman.
    Senator Inhofe. No by proxy.
    The Clerk. Mrs. Boxer.
    Senator Boxer. Yes.
    The Clerk. Mrs. Capito.
    Senator Capito. No.
    The Clerk. Mr. Cardin.
    Senator Boxer. Aye by proxy.
    The Clerk. Mr. Carper.
    Senator Carper. Aye.
    The Clerk. Mr. Crapo.
    Senator Crapo. Aye.
    The Clerk. Mrs. Fischer.
    Senator Inhofe. No by proxy.
    The Clerk. Mrs. Gillibrand.
    Senator Gillibrand. Aye.
    The Clerk. Mr. Markey.
    Senator Markey. Aye.
    The Clerk. Mr. Merkley.
    Senator Merkley. Aye.
    The Clerk. Mr. Rounds.
    Senator Rounds. No.
    The Clerk. Mr. Sanders.
    Senator Sanders. Aye.
    The Clerk. Mr. Sessions.
    Senator Inhofe. No by proxy.
    The Clerk. Mr. Sullivan.
    Senator Sullivan. No.
    The Clerk. Mr. Vitter.
    Senator Vitter. No.
    The Clerk. Mr. Whitehouse.
    Senator Boxer. Aye by proxy.
    The Clerk. Mr. Wicker.
    Senator Inhofe. No by proxy.
    The Clerk. Mr. Chairman.
    Senator Inhofe. No.
    Senator Boozman. Mr. Boozman would like to be recorded as 
no.
    The Clerk. Mr. Chairman, the yeas are 10, the nays are 10.
    Senator Inhofe. Having failed to receive a majority, the 
amendment is not agreed to.
    Other amendments?
    OK. I was going to advise that we are going to stay with 
our agenda here until it is finished. There won't be any 
breaks.
    Seeing no further members wishing to seek recognition or 
offer amendments, I move to accept Substitute Amendment to S. 
697. Is there a second?
    Senator Vitter. Second.
    Senator Inhofe. The Clerk will call the roll.
    Senator Boxer. Wait one moment. Is this the final passage 
vote?
    Senator Inhofe. This is the final passage of 697.
    [The amendment summary and text of the amendment to S. 697 
offered by Senators Boxer, Markey, and Sanders follow:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Senator Boxer. I have a statement to make before I vote, if 
you don't mind.
    Senator Inhofe. That will be fine, if you want to be 
recognized for a statement, you can be recognized.
    Senator Boxer. I surely do, after all that.
    Let me say, Senators, the fact of the matter is that the 
original bill that we had hearings on is gone, it is away, it 
is dead and gone. I am very appreciative of that. The bill that 
is before us in the form of a Vitter substitute was subjected 
to a lot of negotiations. And I thank my colleagues who were in 
on those for making it better.
    I particularly thank the groups out there, the public 
health organizations, who were so strong that it forced the 
negotiations into a much better place than a lot of us thought 
they would go.
    Having said that, I will be specific again about what is so 
much better about this bill. There is no more preemption of 
State air and water laws. There is co-enforcement, that has 
been fixed. And a harmful provision that would have stopped the 
importation of dangerous chemicals, that has been fixed. These 
are fixes.
    The preemption question is still not fixed. We had a chance 
to vote on the Shimkus preemption which would have stopped the 
Federal Government from preempting the State until the EPA 
actually banned a chemical, and it was voted down by the 
Republicans. Let's be clear; Republicans voted almost 
unanimously against anything with one or two exceptions.
    And so there is no secret than when and if this bill comes 
to the floor or in a conference or wherever it goes from here, 
it will face a tremendous number of amendments. I have 27; I 
only offered 3. And I will be bringing those out. And I will 
stand on my feet until I can't stand on my feet anymore, 
because I refuse to bend in the face of serious problems in a 
bill that is said to fix a broken law.
    Now, I ask unanimous consent to place into the record 
letters and statements from organizations that oppose this 
Vitter substitute. They include: Safer Chemicals; Healthy 
Families Coalition, which represents 450 environmental, labor 
and public health groups; the Asbestos Disease Awareness 
Organization; the AFL-CIO; the Environmental Working Group; the 
Breast Cancer Fund; the Center for Environmental Health. So if 
anybody thinks this fight is over, it is just beginning. 
Because once we bring this to the floor, we will have a number 
of us and others not on this committee who are going to file 
perfecting amendments.
    But I do say, again, to everybody, we got rid of a horrible 
bill. It is gone. We have a bill that makes progress. And we 
will continue to work on it until it really protects the people 
who are hurting, who are losing family members, 10,000 a year, 
who are losing children with bone cancer and everything else.
    You know, one time in my career, people said, Barbara 
Boxer, you are just too emotional. And you know what I said to 
them? You know what I said to them? If you don't feel emotional 
when faced with a widow, there is something wrong with you. I 
urge a no vote.
    Senator Sanders. Mr. Chairman.
    Senator Inhofe. Yes, Senator Sanders.
    Senator Sanders. Let me concur with Senator Boxer and thank 
her very much for something that she obviously feels correctly 
very, very strongly about.
    Bottom line is that what we are voting on now is a much 
better bill than what we started with, and I applaud all those 
on both sides of the aisle who have made it a much better bill. 
But when you are dealing with an issue of toxins killing our 
children and causing massive health issues in our country, we 
have to go further than that. We have to have the courage to 
stand up to the chemical industry and do right by our people.
    So we have made progress. We still have a long way to go. 
And I look forward to working with Senator Boxer and others as 
we get to the floor. Thank you.
    Senator Inhofe. Senator Vitter.
    Senator Vitter. Mr. Chairman, first of all, I want to 
commend Senator Boxer for her emotion and say that I think we 
all share it. We don't show it the same way, perhaps, but we 
share it. We are focused on those situations. That is why I am 
going to be voting yes to do what is long overdue to come 
together and actually pass a strong, necessary updating of 
TSCA, one that will empower the EPA to protect public health 
and safety and also keep America as an innovation leader in 
ways that further and enhance all of our lives.
    I want to thank everybody involved in this process, 
including Senator Udall on the Democratic side who has been a 
great lead and all of his colleagues on the Democratic side, 
including the three who have just joined us yesterday. I very 
much look forward to going to the floor and getting this done.
    Thank you, Mr. Chairman.
    [The prepared statement of Senator Cardin follows:]
    
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
    
      
    Senator Inhofe. There is a motion and a second to accept 
the substitute amendment and report it favorably to the floor. 
The Clerk will call the roll.
    The Clerk. Mr. Barrasso.
    Senator Barrasso. Aye.
    The Clerk. Mr. Booker.
    Senator Boxer. Aye by proxy.
    The Clerk. Mr. Boozman.
    Senator Boozman. Aye.
    The Clerk. Mrs. Boxer.
    Senator Boxer. No.
    The Clerk. Mrs. Capito.
    Senator Capito. Aye.
    The Clerk. Mr. Cardin.
    Senator Boxer. No by proxy.
    The Clerk. Mr. Carper.
    Senator Carper. Aye.
    The Clerk. Mr. Crapo.
    Senator Crapo. Aye.
    The Clerk. Mrs. Fischer.
    Senator Inhofe. Aye by proxy.
    The Clerk. Mrs. Gillibrand.
    Senator Gillibrand. No.
    The Clerk. Mr. Markey.
    Senator Markey. No.
    The Clerk. Mr. Merkley.
    Senator Merkley. Aye.
    The Clerk. Mr. Rounds.
    Senator Rounds. Aye.
    The Clerk. Mr. Sanders.
    Senator Sanders. No.
    The Clerk. Mr. Sessions.
    Senator Inhofe. Aye by proxy.
    The Clerk. Mr. Sullivan.
    Senator Sullivan. Aye.
    The Clerk. Mr. Vitter.
    Senator Vitter. Aye.
    The Clerk. Mr. Whitehouse.
    Senator Boxer. Aye by proxy.
    The Clerk. Mr. Wicker.
    Senator Inhofe. Aye by proxy.
    The Clerk. Mr. Chairman.
    Senator Inhofe. Aye.
    The Clerk. Mr. Chairman, the yeas are 15, the nays are 5.
    Senator Inhofe. The legislation is reported favorably to 
the Senate.
    Let me make one comment. I haven't made many comments. But 
I think we are witnessing now why sometimes things don't get 
done. There is not a person in this room who doesn't think that 
the old 40-year-old legislation needs to be changed. We have 
been working on this bill for 2 years. Senator Lautenberg was 
working on it for about 10 years before that. Everyone agreed 
it should be done, but it wasn't because it is complicated. You 
can always find objections to anything that is complicated.
    So I am thankful that that is behind us, and we will now 
proceed to consideration of S. 544 and recognize the Senator 
from Wyoming, Senator Barrasso.
    Senator Barrasso. Thank you very much, Mr. Chairman. I 
appreciate that S. 544, the Secret Science Reform Act, has been 
placed on this markup. As you know, the House Science Committee 
has held extensive hearings on the House version of this bill. 
The bill has passed on the House floor with bipartisan support. 
I am pleased that we are now considering this legislation here 
today.
    I also want to thank the members of this committee who are 
original co-sponsors of the bill, namely, Senator Vitter, 
yourself, Mr. Chairman, as well as Senator Crapo and Senator 
Fischer. What this bill is trying to accomplish is to ensure 
that we strengthen the scientific information the EPA uses to 
make regulations, guidance and assessments. The EPA has a long 
history of relying on science that was not created by the 
agency itself. This often means that the science is not 
available to the public and therefore cannot be reproduced and 
verified.
    As a doctor, I know that the better data and research is 
the kind that is transparent, publicly available and 
reproducible. This legislation accomplishes all of these 
points, and it gives the EPA the gold standard set by modern 
scientific journals and even by the Obama administration's 
stated policy. In fact, Dr. John Holdren, the President's own 
science advisor, stated in June 2012 that ``Absolutely, the 
data on which regulatory decisions and other decisions are 
based should be made public. Once enacted, the EPA will benefit 
from a better process to strengthen the research and data that 
is the basis of their regulations, their guidance and their 
assessments. By improving their scientific process, the EPA 
will enhance the confidence that the public and policymakers 
will have in the agency. The agency's policies must provide the 
environmental and public health benefits that the EPA has 
promised.''
    Under this legislation, the EPA can propose, finalize or 
disseminate regulations, guidance or assessments based only 
upon science that is transparent, publicly available and 
reproducible.
    Critics have claimed that the bill would allow for personal 
and confidential health information to be released to the 
public. This bill ensures that there will be no public 
dissemination of information that is prohibited by law, such as 
personal health information. As a matter of fact, the 
Congressional Research Service stated in March of this year 
that ``Certain statutes, such as the Freedom of Information Act 
and the Privacy Act, address what information the Federal 
Government is required or permitted to disclose.'' The 
Congressional Research service went on to say that the Secret 
Science bill ``would be implemented in the context of these 
statutes.''
    In addition, once again, as a doctor, I know that medical 
researchers code personal health information to protect patient 
confidentiality.
    Finally, let me say that this bill is not a burden on the 
EPA. It does not apply retroactively to past EPA actions. It 
only applies to new actions. Many scientific experts and former 
EPA officials have stated the EPA can accomplish these 
requirements without imposing burdens. This bill does not 
require EPA to collect or disseminate information. It simply 
tells the agency to rely only on the best publicly available 
science.
    So I encourage my colleagues to support strengthening the 
EPA's regulatory process so that the public can have the 
assurance that the EPA's regulations, guidances and assessments 
will provide the environmental and health benefits that they 
have been promised.
    Thank you, Mr. Chairman.
    [The text of S. 544 follows:]
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   

    Senator Boxer. Mr. Chairman.
    Senator Inhofe. Thank you, Senator Barrasso. I am going to 
comment also that this bill is essentially the same as the 
House bill that passed by an overwhelming bipartisan majority. 
One of my close friends, Lamar Smith, who is the author of that 
bill, it is one that is very, very meaningful to most of us.
    Senator Boxer.
    Senator Boxer. Yes, I am going to yield most of my time to 
Senator Markey. I want to make a point, though. We just voted a 
bill that everyone on the Republican side says, oh, we are 
going to give the EPA all this authority, take authority away 
from the States, and at the same time now, we take away the 
ability for the EPA to use science. This is insane. It is just 
a joke. And it costs a billion dollars.
    This is the deal. My friends who are so fiscally 
responsible, according to the CBO, complying with the 
requirements of this bill will coast a billion just over the 
next 4 years. But the bill provides only a million a year for 
EPA. This is a joke. And I know I speak for every single 
Democrat on this side. We are appalled at this bill, and we are 
going to really make it hard to you to get this on the floor.
    But move forward. And I would yield the rest of my time to 
Ed Markey.
    Senator Markey. I thank you. I thank the Ranking Member.
    Senator Inhofe. Senator Sanders is seeking recognition.
    Senator Sanders. Thank you, Mr. Chairman. Let me quote from 
the letter from the president of the American Association for 
the Advancement of Science. She writes, ``I am writing on 
behalf of the American Association for the Advancement of 
Science, the world's largest general scientific society, to 
express deep concerns about the impact of this legislation.'' 
We have another letter from the Allergy and Asthma Network, the 
American College of Preventive Medicine, the American Lung 
Association, the American Public Health Association, the 
American Thoracic Society, Health Care Without Harm, National 
Association of County and City Health Officials, National 
Association for the Medical Direction of Respiratory Care, 
Trust for America's Health. They urge a no vote on this 
legislation.
    Now, with all due respect to my good friend, Senator 
Barrasso, and Senator Inhofe, both are good friends, you 
represent a political party which overwhelmingly rejects what 
the vast majority of scientists are telling us about the most 
important environmental crisis facing humanity, and that is 
climate change. And in fact, all over this country and all over 
the world, the Republican party is perceived to be an anti-
science party. And now you are coming before this committee and 
saying, we should tell the leading scientists of the world how 
they should do science based on the fact that we, Republicans, 
most, not all, have rejected the overwhelming amount of 
scientific evidence on a key scientific issue, which is global 
warming.
    So I would quote what Senator Boxer said. This is kind of 
laughable, and I would urge a strong no on this vote.
    Senator Inhofe. Senator Markey.
    Senator Markey. Thank you, Mr. Chairman. I have a number of 
concerns about the Secret Science Reform Act of 2015. First, it 
is obviously ironic that a bill that claims to reform science 
allegedly done in secret would not get the benefit of a hearing 
in the U.S. Senate before we would be marking it up. Just as 
science benefits from transparency, so does legislating. And 
that is why the Democratic members of the committee joined with 
Senator Boxer and me in sending the chairman a letter 
requesting that this controversial bill have a hearing before 
we mark it up.
    Good legislative process is similar to the scientific 
method every elementary school student learns. You ask a 
question, then you gather data to investigate a possible 
answer, and finally you reach a conclusion. But now we are 
considering a legislative conclusion before we have done the 
legislative investigation.
    And even while we are considering this conclusion today, I 
am told that this committee is planning to hold a hearing on 
EPA science next month taking this bill up now before there is 
a hearing does not make any sense. Without a hearing we are 
left to grapple with deciphering bill language that appears to 
dramatically change what data and scientific research the EPA 
can use in fulfilling its mission to protect public health and 
welfare. The Congressional Budget Office estimated that the 
effect of this bill would be to cut in half the number of 
studies EPA would use to inform its actions.
    Our Nation's environmental laws have succeeded over the 
years because EPA is required to use the best available 
science. This bill would force them to use whatever science was 
available after legal challenges generated from the broad 
language of this legislation.
    Instead of enabling the EPA to keep improving the clean air 
and water protections that benefit all of us, this bill 
protects polluters by effectively limiting what information EPA 
can use to inform its work. For example, the requirement that 
information be publicly available online will preclude 
confidential industry data from being used to inform EPA's 
actions. It would also keep most health studies which us 
personal health data from being used.
    Health studies would face another challenge on the language 
on reproduction of research results. Many health studies 
involve information from a large number of people gathered over 
years and even decades. Waiting for a decade to reproduce 
results about the health impacts of air pollution would just 
mean more kids with asthma and more illnesses that could have 
been avoided.
    EPA would also lose the ability to use information that was 
developed from one-time events like toxic air pollution 
releases and oil spills. We should want EPA to learn from the 
results of using dispersants during the BPA oil spill in the 
Gulf of Mexico. This bill would prevent that.
    Science should be at the foundation of health and 
environmental policymaking. Transparency and reproducibility 
are fundamental to good science and the peer review process and 
deserve our attention.
    I have been working for years to create and improve the 
public registry of clinical trials that is now maintained by 
the National Institutes of Health, for example. It provides an 
additional way for researchers and the public to review health 
research while protecting the individual participants of those 
studies.
    We should be working to strengthen the scientific 
information EPA uses to protect public health and improve air 
and water quality, not limiting it as this bill does. To 
paraphrase my Republican colleagues, this is something that 
absolutely does not require not science, not silence that will 
in fact inhibit legitimate intellectual and scientific inquiry, 
but in fact, in my opinion, this debate should be about how we 
have more openness, how we ensure that this process is aired 
out so that the decisions which we are about to make would be 
those based upon the information which we need.
    And I will have two appropriate amendments to make in order 
to correct that at the appropriate time in this process. And I 
yield back.
    Senator Inhofe. And I would advise the Senator, the 
appropriate time is here. Do you seek recognition for an 
amendment?
    Senator Markey. I do seek recognition, and I would like to 
offer Markey Amendment No. 1.
    Senator Inhofe. Markey Amendment No. 1. You are recognized.
    Senator Markey. I thank you, and I would like to, I am 
offering this with Senator Boxer, and co-sponsored by Senator 
Whitehouse.
    This amendment would change the criteria for scientific and 
technical information by striking the language that effectively 
limits what information EPA can use to inform its work and 
replaces it with a requirement that the funding sources of the 
information be made publicly available. The language my 
amendment strikes would restrict the information EPA could use 
in a number of ways, as I outlined in my earlier statement.
    My amendment would replace this problematic language with a 
requirement that the funding sources of the information the EPA 
uses be made publicly available. Disclosure of funding 
relationships leads to the open debate that is necessary for 
responsible rulemaking. For example, the Journal of the 
American Medical Association, the American Meteorological 
Society, and the American Geophysical Union require the 
disclosure of funding sources and potential conflicts of 
interest.
    Companies and organizations funding legitimate intellectual 
and scientific inquiry to use the term Republican colleagues 
have used previously should have no trouble in disclosing their 
financial support. This is a common sense amendment that would 
fix major problems in the underlying bill and add additional 
requirements that would improve transparency of information 
that EPA uses to make its decisions.
    I urge an aye vote.
    [The text of Markey-Boxer Amendment No. 1 follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Inhofe. Thank you.
    Senator Barrasso.
    Senator Barrasso. Thank you very much, Mr. Chairman. I 
oppose the Markey Amendment No. 1. This amendment would strike 
the most important provision of the bill, the provision that 
requires the EPA to rely on scientific and technical 
information that is publicly available online in a manner that 
is sufficient for independent analysis and insert a requirement 
that EPA rely on information that is ``funded by sources that 
are made publicly available.''
    This amendment completely defeats the purpose of the bill, 
which is to ensure that EPA actions are based on the best 
publicly available science that can be verified by independent 
experts. I strongly recommend a no vote.
    Mr. Chairman, it is interesting, because the distinguished 
Senator from Massachusetts talked about wanting to clear the 
air. But virtually all the Clean Air regulations under the 
Obama administration have been justified by data collected over 
30 years ago, over 30 years ago, which has been withheld from 
the public and cannot be replicated. That is the problem here, 
Mr. Chairman, so I would recommend a no vote.
    Senator Inhofe. Is there a motion on the Markey Amendment 
No. 1?
    Senator Boxer. So moved.
    Senator Inhofe. Is there a second?
    Senator Gillibrand. Second.
    Senator Inhofe. Is a roll call required? The Clerk will 
call the roll.
    The Clerk. Mr. Barrasso.
    Senator Barrasso. No.
    The Clerk. Mr. Booker.
    Senator Boxer. Aye by proxy.
    The Clerk. Mr. Boozman.
    Senator Inhofe. No by proxy.
    The Clerk. Mrs. Boxer.
    Senator Boxer. Aye.
    The Clerk. Mrs. Capito.
    Senator Capito. No.
    The Clerk. Mr. Cardin.
    Senator Boxer. Aye by proxy.
    The Clerk. Mr. Carper.
    Senator Boxer. Aye by proxy.
    The Clerk. Mr. Crapo.
    Senator Inhofe. No by proxy.
    The Clerk. Mrs. Fischer.
    Senator Inhofe. No by proxy.
    The Clerk. Mrs. Gillibrand.
    Senator Gillibrand. Aye.
    The Clerk. Mr. Markey.
    Senator Markey. Aye.
    The Clerk. Mr. Merkley.
    Senator Merkley. Aye.
    The Clerk. Mr. Rounds.
    Senator Rounds. No.
    The Clerk. Mr. Sanders.
    Senator Sanders. Aye.
    The Clerk. Mr. Sessions.
    Senator Inhofe. No by proxy.
    The Clerk. Mr. Sullivan.
    Senator Sullivan. No.
    The Clerk. Mr. Vitter.
    Senator Inhofe. No by proxy.
    The Clerk. Mr. Whitehouse.
    Senator Boxer. Aye by proxy.
    The Clerk. Mr. Wicker.
    Senator Wicker. No.
    The Clerk. Mr. Chairman.
    Senator Inhofe. No.
    The Clerk. Mr. Chairman, the yeas are 9, the nays are 11.
    Senator Inhofe. Having failed to receive a majority, the 
amendment is not agreed to.
    Other amendments? Senator Markey.
    Senator Markey. Thank you, Mr. Chairman. Amendment No. 2.
    Senator Inhofe. Senator Markey, Amendment No. 2. You are 
recognized.
    Senator Markey. I thank you, Mr. Chairman, very much. And I 
offer this amendment as well with Senator Boxer and Senator 
Whitehouse. This amendment is simple. It adds a new section to 
the bill to ensure that the Administrator of the Environmental 
Protection Agency can continue to consider and rely upon peer 
reviewed scientific publications. Peer review is the foundation 
of modern science. It is a self-correcting process that has 
helped to advance science, technology and public health in 
America and around the world.
    As Republican colleagues wrote in February, ``The 
credibility of a scientific finding, research paper, report of 
advancement should be weighed on its compliance with the 
scientific method and ability to meet the principles of sound 
science. In short, it should be weighed on the merits.''
    I agree with that. That is why the EPA Administrator should 
be encouraged to rely on peer-reviewed science, which by 
definition has been weighed on its merits. The EPA 
Administrator should be able to continue using the best and 
most current peer-reviewed science to inform the critical role 
for the EPA. I urge a yes vote on my amendment.
    [The text of Markey-Boxer Amendment No. 2 follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Inhofe. Senator Barrasso.
    Senator Barrasso. Thank you, Mr. Chairman.
    Mr. Chairman, I will speak in opposition to Markey 
Amendment No. 2. This amendment would add a provision to the 
bill allowing the EPA to use information in peer-reviewed 
literature, even if publication is based on data that is 
prohibited from public disclosure. This amendment completely 
defeats the purpose of the bill, which is to ensure that EPA 
actions are based on the best publicly available science that 
can be verified by independent experts.
    But by stating that nothing in the Act prevents the EPA 
from considering or relying on any peer-reviewed science, the 
amendment seems to imply that the underlying bill would 
otherwise do so. EPA, through its implementation of the 
Information Quality Act, is already required to rely on peer-
reviewed information. Nothing in this bill changes that.
    What the bill would accomplish and what this amendment 
would undermine is to ensure that the science the EPA relies on 
is transparent and verifiable to a much greater agree than peer 
review allows. Peer review alone is not a sufficient check. One 
of the problems leading to this bill is the EPA relies on peer-
reviewed studies where the peer reviewer did not even have 
access to the underlying data.
    The simple premise behind the bill is that public policy 
should be based on information that is public. You take a look 
at peer review alone, it doesn't provide the necessary level of 
transparency or opportunity to allow independent scientists to 
verify the work that the EPA relies on.
    For this reason, I urge a no vote on the amendment.
    Senator Inhofe. Is there a motion?
    Senator Markey. I so move. Will you call the yeas and nays, 
please?
    Senator Inhofe. Is there a second?
    Senator Boxer. Yes, second.
    Senator Markey. And I ask for a recorded vote.
    Senator Inhofe. The Clerk will call the roll.
    The Clerk. Mr. Barrasso.
    Senator Barrasso. No.
    The Clerk. Mr. Booker.
    Senator Boxer. Aye by proxy.
    The Clerk. Mr. Boozman.
    Senator Inhofe. No by proxy.
    The Clerk. Mrs. Boxer.
    Senator Boxer. Aye.
    The Clerk. Mrs. Capito.
    Senator Capito. No.
    The Clerk. Mr. Cardin.
    Senator Boxer. Aye by proxy.
    The Clerk. Mr. Carper.
    Senator Boxer. Aye by proxy.
    The Clerk. Mr. Crapo.
    Senator Inhofe. No by proxy.
    The Clerk. Mrs. Fischer.
    Senator Inhofe. No by proxy.
    The Clerk. Mrs. Gillibrand.
    Senator Gillibrand. Aye.
    The Clerk. Mr. Markey.
    Senator Markey. Aye.
    The Clerk. Mr. Merkley.
    Senator Boxer. Aye by proxy.
    The Clerk. Mr. Rounds.
    Senator Rounds. No.
    The Clerk. Mr. Sanders.
    Senator Boxer. Aye by proxy.
    The Clerk. Mr. Sessions.
    Senator Inhofe. No by proxy.
    The Clerk. Mr. Sullivan.
    Senator Sullivan. No.
    The Clerk. Mr. Vitter.
    Senator Inhofe. No by proxy.
    The Clerk. Mr. Whitehouse.
    Senator Boxer. Aye by proxy.
    The Clerk. Mr. Wicker.
    Senator Wicker. No.
    The Clerk. Mr. Chairman.
    Senator Carper. Mr. Chairman, I would like to vote yes in 
person. Aye.
    Senator Inhofe. You are so recorded.
    The Clerk. Mr. Chairman.
    Senator Inhofe. No.
    The Clerk. Mr. Chairman, the yeas are 9, the nays are 11.
    Senator Inhofe. The amendment failed to receive a majority. 
Markey Amendment No. 2 is defeated.
    Other amendments?
    Senator Boxer. Yes, if I might.
    Senator Inhofe. Senator Boxer.
    Senator Boxer. I would call up Boxer-Markey Amendment No. 
2, which would add a new section to the bill to ensure that EPA 
and others are not censored from using terms commonly found in 
peer-reviewed scientific literature in official documents and 
presentations.
    [The text of Boxer-Markey Amendment No. 2 follows:]
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
   
    Senator Boxer. We have seen some Governors around the 
country saying that their teams cannot, in their organization, 
can't use the term global warming or climate change or other 
phrases. I am hopeful that you will accept this by voice vote. 
I would take it by voice vote.
    Senator Inhofe. I believe we would accept it by voice vote.
    Senator Boxer. OK.
    Senator Inhofe. All those in favor of the Boxer Amendment 
No. 2 say aye.
    [Chorus of ayes.]
    Senator Inhofe. Opposed, no.
    [No audible response].
    Senator Inhofe. The ayes clearly have it. The amendment is 
adopted.
    Senator Boxer. Thank you.
    Senator Inhofe. Other amendments?
    Senator Markey. Mr. Chairman.
    Senator Inhofe. Senator Markey.
    Senator Markey. Thank you, Mr. Chairman.
    I was concerned about the issue that was raised earlier 
about the fact that we haven't had a hearing. These issues over 
the use of science would benefit greatly from having experts in 
the use of science explain to us the pros and cons of this 
approach, or enlighten us. The fact that we are doing this 
without any sort of hearing, I would just request, if it is 
possible, to have a unanimous consent that we set this bill 
aside until we have actually had testimony from experts, so 
that the use of science is placed into the appropriate 
understanding of those who know what they are talking about.
    Senator Inhofe. The Chair objects.
    Senator Markey. Thank you, Mr. Chair.
    Senator Inhofe. Other amendments? If not, is there a 
motion?
    Senator Barrasso. Mr. Chairman, yes, I would move approval 
and adoption of S. 544.
    Senator Inhofe. Is there a second?
    Senator Rounds. Second.
    Senator Boxer. May I be heard on this?
    Senator Inhofe. You may be heard.
    Senator Boxer. You know, it is rare that I say this, but 
this bill, I look forward to it coming to the floor, because it 
is going to pass, and I look forward to having debate with the 
Republican party on science. I think that is a definite debate 
that needs to be had.
    Senator Inhofe. And I agree.
    Senator Boxer. And I want to have a recorded vote on this. 
And I look forward to that debate very, very much.
    [The prepared statement of Senator Cardin follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
   
    Senator Inhofe. The Clerk will call the roll.
    The Clerk. Mr. Barrasso.
    Senator Barrasso. Aye.
    The Clerk. Mr. Booker.
    Senator Boxer. No by proxy.
    The Clerk. Mr. Boozman.
    Senator Inhofe. Aye by proxy.
    The Clerk. Mrs. Boxer.
    Senator Boxer. No.
    The Clerk. Mrs. Capito.
    Senator Capito. Aye.
    The Clerk. Mr. Cardin.
    Senator Boxer. No by proxy.
    The Clerk. Mr. Carper.
    Senator Carper. No.
    The Clerk. Mr. Crapo.
    Senator Inhofe. Aye by proxy.
    The Clerk. Mrs. Fischer.
    Senator Inhofe. Aye by proxy.
    The Clerk. Mrs. Gillibrand.
    Senator Gillibrand. No.
    The Clerk. Mr. Markey.
    Senator Markey. No.
    The Clerk. Mr. Merkley.
    Senator Merkley. No.
    The Clerk. Mr. Rounds.
    Senator Rounds. Aye.
    The Clerk. Mr. Sanders.
    Senator Boxer. No by proxy.
    The Clerk. Mr. Sessions.
    Senator Inhofe. Aye by proxy.
    The Clerk. Mr. Sullivan.
    Senator Sullivan. Aye.
    The Clerk. Mr. Vitter.
    Senator Inhofe. Aye by proxy.
    The Clerk. Mr. Whitehouse.
    Senator Boxer. No by proxy.
    The Clerk. Mr. Wicker.
    Senator Wicker. Aye.
    The Clerk. Mr. Chairman.
    Senator Inhofe. Aye.
    The Clerk. Mr. Chairman, the yeas are 11, the nays are 9.
    Senator Inhofe. That is a majority; S. 544 is reported 
favorably to the Senate.
    Now we move to the remaining legislation, the Scarano 
nomination and resolutions to be reported favorably to the 
Senate en bloc. However, before I do, does any member seek 
recognition on the remaining agenda items?
    Senator Boozman. Mr. Chairman.
    Senator Inhofe. Senator Boozman.
    Senator Boozman. Is now the time to talk about the Cardin-
Boozman bill?
    Senator Inhofe. Yes.
    Senator Boozman. Well, first of all, I would like to thank 
Senator Cardin for his work on the Water Resources Research 
Amendment Act. Senator Cardin and I introduced this legislation 
last Congress. I am glad that we are working to advance it here 
today.
    Our bill reauthorizes a program that grants to 54 
established water resources research institutes in each State, 
territory and the District of Columbia for applied water supply 
research. Although this is a very small grant program, it 
allows Arkansas and other States to solve serious problems 
related to our water needs.
    For example, in Arkansas, the program allows researchers at 
the Arkansas Water Resources Center to study how we can grow 
crops while using less water and lowering costs. Each Federal 
dollar spent must be matched with $2 non-Federal. This is the 
highest match requirement of any Federal research program. As a 
result, this program is a cost-effective way of solving water 
quality and quantity problems.
    Again, I appreciate Senator Cardin's work, and I am glad to 
join him. I also thank you, Chairman Inhofe and Ranking Member 
Boxer, for accommodating this bill in today's agenda. I thank 
you.
    [The text of the Cardin-Boozman legislation follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
   
    [The prepared statement of Senator Cardin follows:]
    
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]  
    
    Senator Boxer. Mr. Chairman, I'd like to report this in the 
rest of the agenda just for the record.
    Senator Inhofe. We are going to have to have one more show 
up here to have the quorum. While we are looking, let me 
mention one of the things in the final things to be considered 
is the naming of a courthouse in Oklahoma City, the William J. 
Holloway United States Courthouse. I have been very familiar 
with this individual. He was supported by all the judges, 
current and past. President Lyndon Johnson nominated Judge 
Holloway to the Tenth Circuit in August 1968, where he served 
as Chief Justice from all the way to 1991. He passed away in 
2014.
    Judge Holloway was the longest-serving judge in the Tenth 
Circuit. During his service, he authored over 900 opinions. As 
new Tenth Circuit Judge Robert Bacharach described Judge 
Holloway, ``He simply decided cases by asking what does the 
statute say, what does the Constitution say, what are the facts 
of the case.'' And I can talk about him as long as I need to 
until our eleventh person gets here.
    [Laughter.]
    Senator Wicker. Mr. Chairman, I also would say a remark or 
two about the bipartisan legislation, S. 611, but would also 
assure members that I will quit talking at such point as the 
eleventh committee member arrives.
    Senator Inhofe. Keep talking.
    [Laughter.]
    Senator Wicker. Let me just say, let me thank the members 
of the committee for their indication of support for S. 611, 
the Grass Roots and Small Community Water Systems Assistance 
Act. It reauthorizes the Safe Drinking Water Act's technical 
Assistance and Training provisions for the same $15 million per 
year that it was previously authorized. The authorization--the 
last authorization expired in 2004.
    There is one small change, specifically under this new 
legislation the EPA would have the authority to direct the 
funding to non-profit organizations to also provide onsite 
assistance, regional training and assistance with 
implementation, monitoring, plans, rules, regulations and water 
security enhancements to ensure compliance with the Safe 
Drinking Water Act. And of course, what this whole program is 
designed to do is to assist the small communities who would 
very much like to comply with Federal law with regard to safe 
drinking water but simply don't have the resources for the 
technical assistance and training.
    So I thank Senator Heitkamp for introducing this bipartisan 
bill with me. And I thank the 17 co-sponsors, including 10 
Republicans and 7 Democrats, for co-sponsoring the legislation, 
many of whom are on this committee. I urge a yes vote, and 
believe we will get a yes vote on S. 611.
    Senator Inhofe. That will be considered en bloc.
    Senator Wicker. Right.
    Senator Inhofe. During my opening statement, Senator 
Wicker, I commented that Oklahoma is enough like Mississippi 
that we have an equal interest, and I would say the same thing 
about South Dakota and Arkansas, there are a lot of small 
communities who will be very pleased with the passage of your 
legislation.
    Senator Wicker. Thank you, sir.
    Now, in addition, I assume that we have an indication that 
that eleventh vote is on the way.
    Senator Inhofe. Yes.
    Senator Wicker. With regard to another piece of 
legislation----
    Senator Inhofe. Every time I hear that, I think they are 
probably on the 14th Street Bridge right now.
    Senator Wicker. Unfortunately, some were right here and 
left, I think, not realizing that would cause a quorum to 
evaporate.
    Let me just state with regard to S. 1034, Mr. Chairman, a 
bill to designate the United States Courthouse at 501 East 
Court Street in Jackson as the Charles Clark United States 
Courthouse, the most preeminent Mississippi jurist ever to live 
was L.Q.C. Lamar, a Supreme Court justice who was mentioned in 
President Kennedy's Profiles in Courage. He has received his 
own recognition.
    The second most prominent Mississippi jurist in history is 
Charles Clark, native of Memphis, Tennessee, commissioned in 
the Navy and nominated, confirmed in 1969 to the Fifth Circuit. 
He served as Chief Judge of the Fifth Circuit from 1981 until 
1992, wrote over 2,000 opinions of the court and served as 
chairman of the finance and executive committees of the 
Judicial Conference of the United States.
    So having taken care of L.Q.C. Lamar, this properly 
recognizes, I think, the second most prominent jurist in the 
history of our State. I thank the leadership of the committee 
also for their indicated support of this legislation. Thank 
you, sir.
    Senator Inhofe. Well, let's see. We do have six Republicans 
and four Democrats. Do you have one coming?
    Senator Boxer. I don't know.
    Senator Inhofe. I would prefer to go ahead and do this if 
we could. However, if somebody else leaves, it will have to be 
that way.
    We have lots of activity out there.
    Senator Boxer. I can stay 6 minutes.
    Senator Inhofe. I think we already have a motion and a 
second.
    Senator Boxer. Mr. Chairman, I have a little bit of 
business. Can I ask unanimous consent that all of Senator 
Cardin's statements on all the amendments and final be placed 
in the record in the appropriate places?
    Senator Inhofe. Without objection.
    Senator Boxer. Thank you.
    Senator Inhofe. I understand that Senator Sessions is 
almost here.
    Senator Carper. I think we have a jurisdictional battle, 
because the Homeland Security Committee claims post office.
    [Laughter.]
    Senator Inhofe. OK. We are going to recess to the call of 
the Chair. Unfortunately, there are no scheduled votes.
    Senator Boxer. We can do the GSA ones.
    Senator Inhofe. That is right, we only need seven for 
those. We will break out from the en bloc the GSA resolutions. 
Is there a motion to accept them en bloc?
    Senator Boxer. Move to accept them en bloc.
    Senator Inhofe. Second?
    [Motion seconded.]
    Senator Inhofe. All in favor say aye.
    [Chorus of ayes.]
    Senator Inhofe. Opposed, no.
    [No audible response.]
    [The text of the en bloc resolutions follows:]
    
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
  
    
    Senator Inhofe. They have been accepted.
    Senator Boxer. And we need to meet off the floor.
    Senator Inhofe. We are now recessing to the call of the 
chair.
    [Whereupon, at 12:29 p.m., the meeting was recessed, to 
reconvene at the call of the Chair.]
    [Resuming April 29, 2015, 5:30 p.m.]
    Senator Inhofe. I call the business meeting back to order. 
We have an agreement with the minority for a rolling quorum. 
Additionally, we have two members of the minority, Senators 
Cardin and Carper. I appreciate the opportunity finish our 
business meeting on these remaining items.
    I ask unanimous consent to call up the following remaining 
bills and nomination en bloc and report them favorably to the 
full Senate for consideration.
    Those remaining items are the following: S. 653, Water 
Resources Research Amendments Act of 2015. S. 611, Grassroots 
Rural and Small Community Water Systems Assistance Act. S. 612, 
A bill to designate the Federal building and United States 
courthouse located at 1300 Victoria Street in Laredo, Texas, as 
the ``George P. Kazen Federal Building and United States 
Courthouse.'' S. 261, A bill to designate the United States 
courthouse located at 200 NW 4th Street in Oklahoma City, 
Oklahoma, as the ``William J. Holloway, Jr. United States 
Courthouse.'' S. 1034, A bill to designate the United States 
courthouse located at 501 East Court Street in Jackson, 
Mississippi, as the ``Charles Clark United States Courthouse.'' 
Mr. Mark Scarano, nominee to be Federal Co-chairperson of the 
Northern Border Regional Commission.
    Is there a motion?
    Is there a second?
    Without objection.
    The aforementioned bills and nomination are adopted by 
unanimous consent and reported to the Senate.
    Finally, I ask unanimous consent that staff have authority 
to make technical and conforming changes to each of the matters 
approved including the morning of April 28.
    Without objection.
    I thank the members of the EPW Committee and adjourn.
    [Additional material submitted for the record follows:]
    
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
    
    
                                 [all]

</pre></body></html>
